<html>
<title> - NCLB REAUTHORIZATION: EFFECTIVE STRATEGIES FOR ENGAGING PARENTS AND COMMUNITIES IN SCHOOLS</title>
<body><pre>[Senate Hearing 110-596]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-596
 
  NCLB REAUTHORIZATION: EFFECTIVE STRATEGIES FOR ENGAGING PARENTS AND 
                         COMMUNITIES IN SCHOOLS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING NO CHILD LEFT BEHIND REAUTHORIZATION, FOCUSING ON EFFECTIVE 
   STRATEGIES FOR ENGAGING PARENTS AND COMMUNITIES TO BE INVOLVED IN 
                                SCHOOLS

                               __________

                             MARCH 28, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
34-476 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, MARCH 28, 2007

                                                                   Page
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...     1
Henderson, Anne, Senior Fellow, Community Involvement Program, 
  Annenberg Institute for School Reform, Washington, DC..........     2
    Prepared statement...........................................     4
Ritter, Philip J., Senior Vice President, Texas Instruments, 
  Dallas, Texas..................................................    11
    Prepared statement...........................................    13
Cardinali, Daniel, President, Communities in Schools, Inc., 
  Alexandria, Virginia...........................................    18
    Prepared statement...........................................    19
Patenaude, Kathy, President, Rhode Island Parent Teachers 
  Association, Coventry, Rhode Island............................    32
    Prepared statement...........................................    34
Puriefoy, Wendy, President, Public Education Network, Washington, 
  DC.............................................................    37
    Prepared statement...........................................    39
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee    50
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    52
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    56

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Enzi, Hon. Michael B., a U.S. Senator from the State of 
      Wyoming....................................................    60

                                 (iii)

  


  NCLB REAUTHORIZATION: EFFECTIVE STRATEGIES FOR ENGAGING PARENTS AND 
                         COMMUNITIES IN SCHOOLS

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:09 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Jack Reed, 
presiding.
    Present: Senators Reed, Clinton, Brown, Gregg, Alexander, 
Isakson, and Murkowski.

                   Opening Statement of Senator Reed

    Senator Reed. Let me thank you for your patience and then 
you're all well rehearsed. I understand Ms. Henderson has to 
leave at 4:30 p.m. and so we'll ask any of my colleagues that 
join or have questions, we'll direct to you first, Ms. 
Henderson and then Mr. Ritter at 5 p.m. and we'll try to 
accommodate your schedule also.
    Let me make a very brief opening statement and then welcome 
everyone and I'll ask you to present your testimony.
    Thank you for being here today. Decades of research have 
overwhelmingly confirmed the significant correlation between 
parent, family and community involvement and increased academic 
achievement. A 2002 report compiled by Anne Henderson, one of 
our witnesses here today and her colleague, Karen Mapp, 
detailed research demonstrating the positive impact of 
effective parent involvement on improving students grades, test 
scores, attendance, behavior, and postsecondary prospects.
    As such, in the last reauthorization, I authored the PARENT 
Act, a bill I worked on in conjunction with the National PTA, 
to implement effective ways to include parents in their 
children's education. During the debate on No Child Left 
Behind, with the support of Chairman Kennedy and others on this 
committee, we were successful in adding much of the PARENT Act. 
As a result, parents were placed front and center in the 
education reform effort to increase student achievement. 
Provisions were included to require all information to parents 
and communities to be in a language and format that parents can 
understand. It requires the evaluation of parent involvement 
programs to ensure they are effective and that States must 
collect and disseminate information about effective parent 
involvement practices.
    A study released last fall, the 2006 Met Life Survey of the 
American Teacher, shows the increasing importance of training 
teachers to work effectively with parents as 26 percent of 
teachers reported that they were not prepared to engage 
families in their children's education.
    As such, I have also worked to include provisions in the 
Higher Education Act reauthorization to ensure that prospective 
and new teachers have the skills to effectively work and 
communicate with parents and families.
    Community involvement is also of immense importance in 
raising student achievement and school performance. I authored, 
in the last ESEA reauthorization a bill, the Child Opportunity 
Zone Family Center Act, to help communities and schools work 
together to ensure that children and families have access to 
existing social services and supports so that children come to 
school ready to learn. Although we took significant strides in 
the areas of parent and community involvement in the last 
reauthorization, too many parents and families still face high 
barriers to engaging in their children's education, 
particularly in our highest poverty areas.
    We must work to overcome these barriers by helping high-
need schools and districts build up their parent engagement 
networks with resources and support at the Federal level and 
I'm just pleased and proud to be here today to listen to the 
experts and get their perspectives and I look forward to 
learning much from this hearing.
    With that and in anticipation of the arrival of some of my 
colleagues, I would like to ask the witnesses to give their 
testimony and let me first introduce Anne Henderson because 
Anne has got the most demanding schedule. Ms. Henderson's 
specialty is the relationship between parents and schools. Her 
most recent book, Beyond the Bake Sale, the Essential Guide to 
Family School Partnerships written with Karen Mapp, John Davies 
and Vivian Johnson was published by The New Press in 2007. 
Among her many other reader-friendly reports is the Evidence 
series. She is a noted author and expert. Anne, welcome and 
thank you and please begin.

     STATEMENT OF ANNE HENDERSON, SENIOR FELLOW, COMMUNITY 
  INVOLVEMENT PROGRAM, ANNENBERG INSTITUTE FOR SCHOOL REFORM, 
                        WASHINGTON, DC.

    Ms. Henderson. Thank you, Mr. Chairman and members of the 
committee. I sincerely appreciate this opportunity.
    Senator Reed. You might want to pull that closer to you.
    Ms. Henderson. I do two things in my life and you already 
described that fairly well, Senator. Thank you. I track the 
research on how and why engaging families does have a positive 
impact on student learning and I also look for effective 
practice out there that is putting the research into play.
    First, I just want to discuss briefly the big stories that 
are coming out of the research over the past 30 years and then 
explore the implications of that research for the legislation 
that the committee is considering.
    The first big story is that parent involvement definitely 
has a powerful impact on student achievement and the impact is 
greatest for children from low-income families. I often hear--I 
know my colleagues hear the same thing--educators saying, I 
have to focus all of my time on raising test scores. I don't 
have time to work with families. And what's missing there is 
the knowledge that parent involvement is a strategy for 
improving test scores. It's not something else that has to be 
done. It needs to be integrated as part of every school's 
improvement strategy, building parent involvement into the 
process.
    The earlier the investment in parent involvement, the 
better. A study on the Chicago Parent Centers done by Arthur 
Reynolds and his colleagues, tracking students for over 17 
years, found that in these centers, which start when children 
are age 3 and take families through the third grade or age 9, 
for every year a family is active in the program, there is a 16 
percent increase in the odds that that child will graduate from 
high school. And for children whose families have been in the 
program for 6 full years, their graduation rate from high 
school is over 80 percent compared to a graduation rate of 38 
percent for students whose families did not have that 
opportunity. That's a big spread. I don't think we can afford 
to ignore that. That's a program, the Chicago Parents Centers 
that is funded by Title I.
    So parent involvement has a protective effect on children. 
The more that parents can advocate for their kids, guide them 
through the system, get them help when they need it, help them 
plan for their future, the better kids do. But this is a 
complex skill set. Not everybody is born knowing how to do 
this. Not everybody grew up in families that regularly 
practiced that. So there is a big class and cultural disparity 
in families' capacity to be advocates for their kids that can 
be addressed by good programs.
    I believe that this disparity is a major engine of the 
achievement gap, that the more families can be advocates for 
their kids, the more likely they are to finish school.
    Now parents are doing more than we give them credit for. 
That's another big finding from the research. Families of all 
backgrounds, all income and education levels, are talking to 
their kids about school, they're trying to keep them focused on 
homework, they are telling them that they have to work hard and 
get a good education but how effective and well informed this 
is varies by how much information the families are getting from 
school. We need to build on this strength that families have 
and these things that our families are doing rather than 
blaming them for not doing more.
    Community organizing efforts are also having a major impact 
on schools across the country. They are aiming to build power 
in low-income communities and hold schools more accountable for 
results and they are also making major contributions for 
linking schools to social services and other programs that can 
help build student achievement.
    And then a major finding in the research is--and I know 
this is going to sound obvious but it is that the more family 
involvement programs are linked to improving student learning, 
the more effective they are. If we think about all the things 
that schools do to engage families--Back to School Nights, Open 
Houses, Fun Fairs--how well designed are they to help families 
understand what their kids are learning and doing in class, 
what good work looks like for their kid's age and grade level, 
how they can help their kids at home build their skills. The 
more that they do this, the more impact they'll have. So we 
need to be much more intentional and that has big implications 
for family school compacts and policies.
    Another study I want to let you know about was done by 
Westat and Policy Studies Associates that found that three 
practices of teacher outreach to families are associated with a 
30 to 50 percent faster rate of gain for students in reading 
and math and those three practices are meeting every family in 
their class face to face, sending home learning materials that 
families can use with their kids and staying in regular touch 
with them about how their kids are doing, not just calling home 
when they've acted out. Those three things. How hard is that?
    If schools would just do that, I think we'd see major 
steady gains in student achievement, assuming of course, that 
the teachers are highly qualified and effective.
    So now that we have an idea of what needs to be in place, 
how do we get the parents there and engaged in doing this? This 
is the final big story from the research and that is, that when 
schools welcome families, honor them, treat them with respect, 
build relationships between families and teachers, they stay--
parents will stay involved and get involved in ways that will 
improve achievement.
    So we have enough information and experience and research, 
I feel, to do this right. But the question is, what is it going 
to take in the legislation to make it happen? I do have a few 
recommendations.
    My colleague, Ed Darden and his group, Appleseed, have done 
a study and while they concluded that the current requirements 
in the law for parent involvement are strong and could be 
effective, they are at the bottom of the priority list. So what 
we need to do is help everybody up and down the line understand 
how to use family involvement strategies as a major means, as a 
major way of improving student achievement. It's the compacts 
that are required, for example, which were designed using 
student achievement data and hone in on the skills that need to 
be strengthened and hammer out agreements between teachers and 
families about how to work together to improve those specific 
skills. They'd be much more effective than they currently are 
and if a policy schools are required to develop actually 
committed the schools to do what the compact said the school 
was going to do, we'd have more effective compacts. So we need 
district and State infrastructure to make this happen. And we 
need enforcement and we need this to be set as a high priority 
at both the district and the State level so that schools are 
getting technical assistance and support to do this right.
    [The prepared statement of Ms. Henderson follows:]

         Prepared Statement of Anne T. Henderson, Senior Fellow

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to participate in this important hearing on the 
reauthorization of the No Child Left Behind Act. I am here today to 
discuss the all-important relationship between families and schools, 
especially low-income families and the schools their children attend, 
because this relationship has a powerful impact on students' academic 
achievement and life prospects. For over 25 years, I have been tracking 
two things:

    <bullet> the research on how and why engaging families can have a 
positive impact on student learning, and
    <bullet> effective policies and practices of schools, school 
districts and community organizations that are working to build and 
sustain strong family-school partnerships.

    First, I will discuss the big stories coming out of the research 
over the past 30 years. Then I will explore the implications of this 
research for the legislation before this committee.

                     BIG STORIES FROM THE RESEARCH

    1. If the first big story can be summed up in a sentence, it is: 
When families are involved at home and at school, children do better in 
school, and the schools get better. The effects are greatest for low-
income students.
    In my most recent review of the research, which was written with 
Karen L. Mapp of the Harvard Graduate School of Education and published 
by the Southwest Educational Development Laboratory in 2002, we found 
that students with involved parents, no matter what their income or 
background, are more likely to:

    <bullet> Earn higher grades and test scores, and enroll in higher-
level programs;
    <bullet> Be promoted, pass their classes and earn credits;
    <bullet> Attend school regularly;
    <bullet> Have better social skills, show improved behavior and 
adapt well to school; and
    <bullet> Graduate and go on to postsecondary education.\1\
---------------------------------------------------------------------------
    \1\ Anne T. Henderson and Karen L. Mapp, A New Wave of Evidence: 
The Impact of School, Family and Community Connections on Student 
Achievement (Austin TX: Southwest Educational Development Laboratory, 
2002).

    2. The second big story is families are doing more at home than we 
realize or give them credit for. For years, studies have been finding 
that families of all income and education levels, and from all ethnic 
and cultural groups, are talking to their children about school, trying 
to keep them focused on learning and homework, encouraging them to work 
hard and get a good education, and helping them plan for higher 
education. Low-income and culturally diverse families DO value 
education and they DO want their children to succeed.
    Families with more income and education, however, tend to be more 
engaged at school, better able to work collaboratively with educators, 
and therefore to be better informed about how to help their children at 
home. Supporting all families in their efforts to be more involved at 
school and more knowledgeable about what children are learning in class 
is an important strategy for addressing the achievement gap. We must 
build on this interest and effort, instead of blaming families for not 
doing more.
    Another important reason for giving families information and 
resources to guide their children's out-of-school time is that students 
spend 70 percent of their waking hours outside school. How they spend 
that time, and with whom, is critical to their success in school. 
Reginald Clark's studies have found that students who spend at least 20 
hours a week out of school in ``high-yield learning activities'' with 
responsible, caring adults tend to have higher grades and test 
scores.\2\
---------------------------------------------------------------------------
    \2\ Reginald Clark, ``Ten Hypotheses about what predicts student 
achievement for African American students and all other students: what 
the research shows,'' in Walter L. Allen et al. (eds), African American 
Education: Race, Community, Inequality and Achievement--A Tribute to 
Edgar G. Epps (Oxford, UK: Elsevier Science, 2002).
---------------------------------------------------------------------------
    3. Third, parent advocacy and support has a protective effect on 
children. The more families can speak out for children and support 
their progress, the better their children do, and the longer they stay, 
in school. It takes a fairly complex skill set to do this job. To be 
effective advocates, parents must:

    1. Know how the system works;
    2. Work with school staff to plan for their children's future;
    3. Guide children through the system, steering them to higher-level 
classes and programs;
    4. Know where to get help when their children need it; and
    5. Speak out for their children, and for other students and 
families, when problems arise.

    Opportunities to learn these skills, from workshops to full-blown 
parent leadership training programs such as the Parent Leadership 
Exchange in Massachusetts, the Parent Leadership Training Program in 
Connecticut, the Parent Education Network in Wyoming, and the 
Commonwealth Institute for Parent Leadership in Kentucky, give low-
income and less well-educated families a real advantage.
    4. The fourth big story is that investing in parent education when 
children are young will pay off throughout their whole career in 
school. The Child-Parent Center (CPC) program in Chicago is an 
excellent example. This is a center-based, early intervention program 
that provides comprehensive education and family support services to 
low-income children and parents from pre-school to third grade.
    Direct parent involvement in the CPC program is designed to enhance 
parent-child interactions, parent and child connection to school, 
social support among parents, and children's school readiness and 
social adjustment. The program requires that parents take part at least 
one-half day per week. A parent resource room, staffed by trained 
parent resource teachers, offers a variety of activities, including 
parent-to-parent and parent-child interactions. It also offers 
materials, training, GED classes, membership on a school advisory 
council, and participation in school activities such as field trips.
    The chart on the next page, from an important study by Arthur 
Reynolds and Melissa Clements (2005), summarizes the benefits for 
children whose parents took part in the CPC program from 1 to 6 years. 
In short, CPC students were better prepared for school and more likely 
to finish high school, and less likely to be maltreated, repeat a 
grade, need special education services, or be arrested.
    Each year that families participated in the program increased the 
odds that their children would graduate from high school by 16 percent. 
Over 80 percent of the students whose parents were involved for the 
whole 6 years graduated from high school, compared to 38 percent of 
students whose parents were not involved at all.\3\ The CPC program is 
funded in part with title I funds.
---------------------------------------------------------------------------
    \3\ Arthur Reynolds and Melissa Clements, ``Parental Involvement 
and Children's School Success,'' in Eva Patrikakou et al. (eds), 
School-Family Partnerships: Promoting the Social, Emotional, and 
Academic Growth of Children (NY: Teachers College Press, 2005).

 Proportion of CPC Pre-school and Comparison Children Achieving School and Social Competence (Participation 1-6
                                                     years)
----------------------------------------------------------------------------------------------------------------
                                                                                Program   Comparison
                         Child Outcomes                               Age        Group       Group    Percentage
----------------------------------------------------------------------------------------------------------------
At/Above national norm on school readiness......................           5       46.7%       25.1%        +86%
Completed HS....................................................       18-22       65.7%       54.5%        +21%
Child maltreatment..............................................        4-17        5.0%       10.3%        -51%
Repeated a grade................................................        6-15       23.0%       38.4%        -40%
Special education...............................................        6-18       14.4%       24.6%        -41%
Juvenile Arrest.................................................       10-18       16.9%       25.1%        -33%
----------------------------------------------------------------------------------------------------------------

    5. The more that programs and activities for families are linked to 
what their children are learning and doing in class, the greater impact 
they will have on student achievement. Think about all the things 
schools put on for families: fun fairs, back to school nights, PTA 
meetings, family fun nights, science fairs, and so on. In general, when 
these programs and activities focus on helping parents understand what 
students are learning, what the standards say students should know for 
their age and grade level, and how they are being taught, they have 
significantly more impact on student achievement.
    Workshops, learning kits, family math and reading events, and other 
learning activities also are a good investment. Learning what their 
children are doing in class, practicing learning activities with their 
children, then borrowing materials such as math and science kits to use 
at home, all contribute to student learning.
    The most powerful link to learning, however, is close, regular 
communications between teachers and families. A study of 81 high-
poverty title I schools by Westat and Policy Studies Associates (2001), 
for example, found that three practices of teacher outreach to families 
lead to a 40-50 percent faster gain in both reading and math among 
third to fifth grade students:

    <bullet> Meeting with families face to face.
    <bullet> Sending materials on ways to help their children at home.
    <bullet> Telephoning both routinely and when their child was having 
problems.\4\
---------------------------------------------------------------------------
    \4\ Westat and Policy Studies Associates, The Longitudinal 
Evaluation of School Change and Performance in title I Schools, Volume 
I. (Washington, DC: U.S. Department of Education, Office of the Deputy 
Secretary, Planning and Evaluation Service, 2001) www.ed.gov/offices/
OUS/PES/esed/lescp--highlights.html.

    If schools could do only this--and how hard would it be to do these 
three things?--they would be using parent involvement as an intentional 
strategy for improving achievement and their students would be making 
substantial gains. Provided, of course, that the classroom teaching was 
effective.
    6. Community organizing efforts to build parent and community 
leadership are improving schools efforts by community organizations to 
engage parents in improving low-performing schools are growing across 
the country. Parent leadership training and community organizing expand 
families' knowledge of how the system works and how to make it work for 
their children. Unlike traditional, school-based parent involvement, 
parent leadership and community organizing programs build partnerships 
to support schools and hold them accountable for results.
    Recent studies by the Community Involvement Program of the 
Annenberg Institute for School Reform, which is based in Providence, 
RI, have found that community organizing contributed to these changes 
in schools:

    <bullet> upgraded school facilities;
    <bullet> improved school leadership and staffing;
    <bullet> higher quality learning programs for students;
    <bullet> new resources and programs to improve teaching and 
curriculum;
    <bullet> greater parent and community involvement in school 
activities and programs; and
    <bullet> new funding for family services and after-school programs. 
\5\
---------------------------------------------------------------------------
    \5\ Kavitha Mediratta, Constituents of Change: Community 
Organizations and Public Education Reform (NY: Institute for Education 
and Social Policy, 2004).

    Schools in low-income areas should be working with community 
organizations, rather than seeing them as ``outsiders'' who want to 
``interfere with'' the school. Schools also should work closely with 
providers of after-school programs, to make sure their tutoring and 
homework help are aligned with what students are learning in class and 
focused on skills that need to be strengthened.
    7. The final big story is about building and sustaining effective 
partnerships with families. When families are welcomed and treated with 
respect, honored for their contributions, and connected to teachers, 
other parents and what's happening in the classroom, they become 
motivated to be involved over the long-term, in ways that can improve 
their children's success in school.
    I often hear complaints that low-income families ``don't care about 
their kids,'' or ``don't value education.'' This could not be farther 
from the truth. Kathy Hoover-Dempsey and Howard Sandler have done a 
series of studies on parent motivation and found that three key factors 
influence the choices parents make about being involved in their 
children's education:

    1. How parents develop their job description as a parent. 
(Researchers call this ``role construction.'') What parents think 
they're supposed to do to help their children, and what teachers, 
family and friends say about what's important and acceptable, deeply 
affect what parents decide to do.
    2. How confident parents feel about their ability to help their 
children. (Researchers call this ``efficacy.'') Parents are more likely 
to become involved if they feel that:

    <bullet> they have the skills and knowledge needed to help their 
children;
    <bullet> their children can learn what they have to share and 
teach;
    <bullet> they can find other sources of skill or knowledge if 
needed; and
    <bullet> what they do will make a positive difference in their 
children's learning.

    3. Whether parents feel invited--both by their children and the 
school. This ``sense of invitation'' is strongly influenced by signals 
that parents receive from their children and school staff. These 
signals that let parents know what their children and teachers want and 
expect. Their children's age, and how well they're doing in school, 
also have an impact. (Hoover-Dempsey and Sandler, 1997) \6\ In her 
current research, Hoover-Dempsey notes that of the three factors, 
invitation is very often the most important.
---------------------------------------------------------------------------
    \6\ Kathleen Hoover-Dempsey and Howard Sandler, ``Why Do Parents 
Become Involved in Their Children's Education?'' Review of Educational 
Research, 67(1)1997, 3-42.

    In other words, we know that parents are more motivated to support 
their children's learning when they receive clear invitations and 
support from teachers and other school staff to be engaged, are 
confident about their ability to help their children, and are clear 
about what they should do to support their child's learning. Obviously, 
school staff can have a big impact on these considerations, especially 
on making parents feel invited and welcome.
    At Wyman Elementary School in St. Louis a couple of years ago, I 
was attending a breakfast for parents. Standing just outside the door 
was an African-American parent, hesitating to come in. I went over and 
greeted her, introducing myself. She said she was ``Tyrone's mom'' and 
had never been inside the school before. ``Why did you come this 
time?'' I asked.
    ``Because Tyrone's teacher called and invited me,'' she said.
    When I asked if she had ever gotten other invitations to come to 
the school, she said, ``Yes, I got flyers and other stuff. But I didn't 
think they meant ME. I didn't think they wanted ME to come.'' I'll 
never forget her.

   IMPLICATIONS FOR TITLE I AND SECTION 1118 OF NO CHILD LEFT BEHIND

    ``It Takes A Parent,'' a recent report by the Appleseed 
organization, is based on research involving 18 school districts in six 
States. The report finds that:

    <bullet> data reports are often confusing and overwhelming, and 
parents wait months for performance results, often into the next school 
year;
    <bullet> teachers and administrators often lack training in how to 
engage parents; and
    <bullet> parent involvement has fallen to the bottom of the list of 
NCLB requirements, though it is integral to the success of the law and 
of students and schools.

    The report concludes, and I agree, that current parent involvement 
provisions of the law are solid and ambitious, but require more 
faithful implementation and greater enforcement.\7\
---------------------------------------------------------------------------
    \7\ It Takes a Parent: Transforming Education in the Wake of the No 
Child Left Behind Act, (Washington, DC.: Appleseed, 2006). 
www.appleseednetwork.org.

    1. First, make sure the requirements for compacts and policies are 
taken seriously and enforced. School staff must use the compact as a 
tool for collaborating with families to improve achievement. Instead, 
districts and schools tend to see it as a burden and do the bare 
minimum to satisfy the law. The general guidance on the U.S. Department 
of Education Web site is being copied and inserted into compacts all 
over the country. This is a missed opportunity.
    When compacts were first proposed in 1994, one idea was to have a 
personal learning plan for every title I student. Because this was seen 
as burdensome, the 1994 law instead required a general compact, which 
can be discussed individually and made more detailed at parent-teacher 
conferences.
    I recommend that schools be required to take the following steps in 
implementing compacts:

    1. Look at the school's test data with parents. What are the areas 
of low achievement? Break down the data to find any gaps between 
different groups of students.
    2. Set priorities for improvement and establish a goal for each 
group. For example, if reading scores are low across the board, then 
make improving reading skills a priority.
    3. Ask parents, students, and school staff what they should do to 
meet the goals. Then ask each group to list what it wants the others to 
do.
    4. Focus the compact on concerns that have come up in the 
discussions. For each area (e.g. homework, communication, rules of 
behavior), list what each group can do.
    5. Draw up a first draft, then ask for comments. Revise it based on 
reactions from parents, teachers and students.
    6. Review and customize the compact for each child at parent-
teacher conferences.

    The following chart, from my new book Beyond the Bake Sale, 
contrasts the typical compact (on the right) with one that has more 
specific links to learning. \8\
---------------------------------------------------------------------------
    \8\ Anne T. Henderson, Karen L. Mapp, Vivian R. Johnson, and Don 
Davies, Beyond the Bake Sale: The Essential Guide to Family-School 
Partnerships (NY: The New Press, 2007) 104-105.


------------------------------------------------------------------------

------------------------------------------------------------------------
Compact Linked to Learning:                 Old Style Compact:
This compact pledges our school community   ``This compact will promote
 to increase student reading and math        effective working
 skills so all students will be proficient   relationships to improve
 by the end of third grade.                  student achievement.''
------------------------------------------------------------------------
Parent's Pledge: I will                     Parent's Pledge: I will
<bullet> Monitor my child's progress and    <bullet> Send my child to
 let the teacher know right away if I        school every day.
 notice any problems.                       <bullet> Keep in contact
<bullet> Use reading and math materials      with school once a month.
 the school sends home each week to help    <bullet> Support the school
 my child.                                   dress and discipline codes.
<bullet> Read to my child 20 minutes a day  <bullet> Limit TV watching
 and keep a list of new words.               time.
<bullet> Limit TV to 1 hour a day and talk  <bullet> Be an active
 to my child about our favorite program.     participant in my child's
<bullet> Help my child see how to use        learning process.
 reading and math to pursue interests and
 goals.
------------------------------------------------------------------------
Student's Pledge: I will                    Student's Pledge: I will
<bullet> Ask for help from my teacher and   <bullet> Complete my
 family if I am having trouble doing my      classwork.
 work.                                      <bullet> Come to school
<bullet> Read on my own and with my family   prepared to learn.
 every day.                                 <bullet> Respect adults,
<bullet> Work on my math and reading         myself and other students.
 skills at home, using the materials my     <bullet> Obey school rules.
 teacher sends home.                        <bullet> Complete my
<bullet> Write down assignments, do my       homework.
 homework every day, and turn it in when
 it's due.
<bullet> Talk to my family about my
 favorite TV program.
------------------------------------------------------------------------
Teacher's Pledge: I will                    Teacher's Pledge: I will
<bullet> Build a relationship with every    <bullet> Have high
 family in my class.                         expectations for all
<bullet> Keep families informed of their     students.
 children's progress and needs in each      <bullet> Develop a classroom
 subject.                                    climate that is comfortable
<bullet> Make sure every student gets the    for all students.
 help he/she needs as soon as it's needed.  <bullet> Develop proficient
<bullet> Send home learning materials in     learners.
 math and reading.                          <bullet> Enforce rules
<bullet> Explain my approach to teaching,    fairly and consistently.
 expectations, and grading to students and  <bullet> Provide the books
 their families.                             and necessary supplies for
<bullet> Work on my reading and math         education.
 strategies so that I can reach all
 children.
<bullet> Make sure students understand
 assignments and what they'll learn from
 them.
------------------------------------------------------------------

    2. Schools also should be required to develop, with parent 
participation and approval, school parent involvement policies and 
programs that actually commit schools to do what the compact says and 
to make the school family-friendly. For example, the policy should 
allow parents to observe in the classroom so they can see how reading 
and math are being taught; give teachers time in their schedule to meet 
one-to-one with families; and use title I funds to purchase learning 
materials that can be sent home.
    The policy should provide that all activities, events and programs 
for families be designed so that in some way they help families:

    <bullet> Get a clear idea of what their children are learning and 
doing in class.
    <bullet> Promote high standards for student work.
    <bullet> Gain skills to help their children at home.
    <bullet> Understand what good teaching looks like.
    <bullet> Discuss how to improve student progress.

    The policy also should lay out clear expectations for staff about 
making the school welcoming and family-friendly. For example, setting 
standards for customer service in the front office, posting signs that 
clearly explain where things are in the school, setting aside parking 
spaces for parents, and establishing regular hours for parents to meet 
with teachers and the principal.
    3. Make it clear that title I funds can be used to hire family-
school coordinators and that this is a sound investment. Not only can 
coordinators save teachers a lot of time, they also act as cultural 
brokers, bridging differences of class, language and culture between 
staff and families. For this position to be effective, there must be 
training both for the coordinator and for school staff about the role 
of the coordinator. A good job description should consist of four key 
tasks:

    Number One: Help the school to develop a family-friendly school 
climate. This should be done in cooperation with the principal, 
teachers, parent organization, and other staff. For example:

    <bullet> Conduct an annual ``welcoming school walk-through'' with 
parents and teachers to make sure the school welcomes families and 
treats them with respect.
    <bullet> Work with school staff to use the walk-through results to 
make improvements (e.g. signs, directions, greeting at front office, 
displays of student work, regular visiting hours.)
    <bullet> Create a comfortable family resource room where families 
can meet, get to know each other, and discuss their interests and 
concerns. Stock the family room with books, games, learning materials 
that families can borrow.
    <bullet> Develop a school family involvement policy with input and 
approval from parents and teachers.

    Number Two: Develop programs and activities designed to engage 
families in improving student achievement. Plan these in collaboration 
with an action team of families, teachers, parent organizations, 
business-community partners, and the principal. For example:

    <bullet> Design two family involvement programs/activities each 
quarter to help families participate more effectively in improving 
their children's learning (e.g., family reading activities, math and 
science trainings, and career and college planning events).
    <bullet> Help families understand standards and assessments, 
student test scores, rubrics, and the school report card.
    <bullet> Facilitate and organize other parent meetings and 
workshops, as parents request.
    <bullet> Collaborate with school staff, community members, partners 
and families to develop programs and activities geared to reach 
families who are under-represented because of social, economic, racial 
and/or language barriers.

    Number Three: Help teachers/staff and families develop strong 
partnerships and enhance communication between families and school 
staff. For example:

    <bullet> Create ways for teachers and parents to meet face-to-face. 
Examples: class meetings, breakfast with principal, getting-to-know-you 
activities at PTA/PTO meetings.
    <bullet> Develop monthly contact logs for teachers with families' 
telephone numbers, so that teachers can be in touch with families at 
least once a month.
    <bullet> Communicate regularly with the principal about parents' 
and families' concerns and ideas for improvement.
    <bullet> Work with teachers and other staff to develop learning 
kits that families can take home to use with their children.
    <bullet> Be a liaison between families and teachers when problems 
arise, more information needs to be shared, or cultural differences are 
a barrier.
    <bullet> Arrange for translation and interpretation services for 
meetings, parent-teacher conferences, telephone calls, and notes home.
    <bullet> Partner with community groups to organize tours of the 
community for school staff to get to know families and neighborhoods 
better.

    Number Four: Develop and implement effective family involvement 
strategies and activities to empower students and their families. For 
example:

    <bullet> Invite parents to participate in school committees and in 
the school's parent organization. Work with those groups to help them 
be welcoming and supportive of new members.
    <bullet> Recruit parents to be a part of school/district 
decisionmaking committees and meetings. Be sure they have information 
and background materials to be informed members.
    <bullet> Document parent/community activities through visual 
portfolios that include sign-in sheets, flyers, pictures, etc.
    <bullet> Invite families to participate in professional development 
training along with staff.
    <bullet> Ask parents to evaluate parent meetings and parent/family 
workshops.
    <bullet> Survey families/school community and school personnel to 
assess the effectiveness of your school's partnership program.

    4. Create a district action team of administrators, teachers and 
parents. The parents must be leaders who are active in the schools, 
represent the diversity of students, and know the community. This 
action team should be responsible for developing and implementing a 
parent involvement plan as well as engaging families and community 
members in developing a district policy for parent involvement that 
applies to all schools, not just to schools receiving title I funds. 
This team should design effective approaches to engage families, 
through the school parent association, focus groups and study circles, 
to obtain their advice about improving student achievement and to build 
their social and political connections.
    5. Encourage districts to develop district-wide programs that 
support family involvement, such as family resource centers, 
professional development for families and school staff, and parent 
leadership training. Double the 1 percent minimum of their title I 
funds that districts are required to spend for parent involvement 
programs, and make clear that it's a minimum.
    6. Create separate funding for district investment in early 
childhood programs that promote parent involvement and school 
readiness, modeled on the Child-Parent Centers in Chicago.
    7. Require every State education agency to designate a high-level 
official to head an office for family and community engagement that 
will enforce the parent involvement requirements in the law. This 
office must have full responsibility to set standards and indicators 
for proficient school and district practices of family involvement, to 
make sure that districts fully engage families in improving schools and 
student achievement, and to offer information, technical assistance, 
and other resources to school districts, schools, and parent and 
community organizations, as well as other SEA staff.
    Mr. Chairman, I appreciate this opportunity to share my views. I 
encourage the committee to make sure that proven strategies for 
effectively engaging families are an integral part of every State, 
district and school improvement plan to improve the achievement of our 
most vulnerable children. Yes, we must continue to uphold the high 
standards for accountability set by No Child Left Behind, but we must 
also understand that we will not reach the goal we have set for our 
children unless parents are full partners in the effort to make it 
happen.
    Thank you.

    Senator Reed. Thank you very much, Anne. For the benefit of 
my colleagues, Ms. Henderson has to leave at 4:30 p.m., in 
about 20 minutes and Mr. Ritter will depart at 5 p.m..
    Senator Gregg, do you have an opening statement or remarks?
    Senator Gregg. No. Senator Enzi wished to be here, 
obviously. This is an important issue and he wanted to be here, 
but he has some issues of health in his family and he had to 
attend to those.
    Senator Reed. Senator Brown or Senator Murkowski, do you 
have statements or comments? Thank you very much. If anyone 
does have questions for Ms. Henderson, now might be an 
appropriate time. If not, then we'll recognize Mr. Ritter and 
then we hope we have time at the end of the testimony to 
respond.
    Let me introduce Mr. Philip J. Ritter. Mr. Ritter has been 
with Texas Instruments for nearly 20 years, has led their 
public and community affairs department since 2001. Texas 
Instruments supports a number of programs in Texas and 
nationwide to improve science and math curriculum, offer more 
students advanced classes, prepare students for high tech jobs, 
help teachers incorporate technology into their classrooms, 
improve graduation rates in Texas and personally involve their 
staff in schools for mentoring. That's quite an impressive 
list, Mr. Ritter. Thank you for being here today. Please.

  STATEMENT OF PHILIP J. RITTER, SENIOR VICE PRESIDENT, TEXAS 
                   INSTRUMENTS, DALLAS, TEXAS

    Mr. Ritter. Thank you, Senator Reed and members of the 
committee. It is a privilege to be here. TI and a lot of other 
high tech companies are spending a lot of time with all of you 
on the Hill talking about innovation and competitiveness and 
what it means for our country and certainly it means things 
like investment of basic research. It means things like the 
right immigration policies, R&D tax credit and so forth but as 
important as any of that is, getting K-12 education right and 
we see the reauthorization of No Child Left Behind as being 
absolutely critical to the competitiveness agenda that we all 
care so much about and we're strongly supportive of it.
    As you mentioned, TI has been deeply involved at the State 
level on education reform, really going back to the mid-1980s 
when the Democratic Governor, Mark White, appointed Ross Peroe, 
Senior and Tom Luce to chair a Blue Ribbon Commission on 
Education Reform. It's really launched a lot of the philosophy 
in Texas that came into the national forefront through the 
original No Child Left Behind legislation and that philosophy 
and the way we see it is deeply rooted in data. It's deeply 
rooted in identifying best practices and deploying best 
practices, including strategies for parental involvement. It's 
about accountability. It's about campus-level leadership and 
particularly leadership by principals and it's about the 
professional development of educators.
    Probably the most important outcome of No Child Left Behind 
is the ability to generate longitudinal data over time and 
really use that data to tease out what the best practices are 
and this capability has honed every significant education 
effort that TI has been involved in over the past 20 years.
    Back in the late 1980s and early 1990s, we became very, 
very interested in early childhood education and we adopted, 
got very involved with Frasier Elementary School in South 
Dallas and we realized--and this is one of the poorest 
performing schools in DISD and we quickly realized after 
talking to the principals and the leaders in DISD that if we 
wanted to impact educational outcomes in that community, we 
needed to do something about early childhood education and so 
for 12 years, our Foundation worked with SMU to roll out a 
language rich early reading curriculum at the pre-school that 
fed Frasier Elementary and we used the accountability system in 
Texas to generate data that proved that that investment in 
early childhood education had a long-term impact on kids, right 
on through the fifth grade and on into middle school.
    We had the data to prove it and after about 10 years of 
that effort, we took that data to the Texas legislature in the 
late 1990s and it was the basis for the legislature investing 
over $80 million over 2 years in language rich, early reading 
curriculum.
    So that's an illustration of the power of the 
accountability system, the data system that we have in place in 
the States and also encourage it at the national level, to 
inform best practices and command the investment of resources 
into things that work.
    We're doing something similar right now in the math and 
science area with a middle school in Richardson, which is a 
school district just north of Dallas and we're very, very 
encouraged by the results there. We've got an effort underway 
as well with the Dallas Independent School District to see how 
the accountability system, how the data can be used for 
systemic improvement across a large urban school district.
    It's been frustrating to us that you can get outstanding 
results at a handful of campuses inside an urban school 
district but we've never figured out how to use this system in 
a systemic way to lift up an entire urban school district. So 
that's the effort that we've got underway today in Dallas and 
we could not do that if we didn't have this particular policy 
framework in place.
    So without this framework that is in No Child Left Behind, 
results are difficult to measure. Best practices are harder to 
identify and the data to justify investments in things that 
work is much more difficult to obtain and we'd strongly 
encourage your reauthorization of this legislation. Thank you.
    [The prepared statement of Mr. Ritter follows:]

                 Prepared Statement of Philip J. Ritter

    Thank you for the opportunity to testify. Texas Instruments (TI) is 
a company with a 76-year history of innovation. While our business 
portfolio has changed over the years, we have always been a company of 
engineers and scientists. TI is the world's third largest semiconductor 
company. Semiconductors are the enabling technology of the information 
technology industry and are responsible for unprecedented productivity 
gains across all sectors over the last several decades. Chips drive 
everything from computers to cell phones, to MP3 players, GPS systems, 
HDTVs, automotive safety, medical devices, and advanced weapons 
systems.
    American innovation is a top policy priority for TI. The key 
elements needed for the United States to sustain its technology 
leadership are: investing in basic research, welcoming the world's 
brightest minds, extending the R&D tax credit--and perhaps most 
importantly--improving math and science education. The reauthorization 
of No Child Left Behind is an element in ensuring that our children 
have the skills to compete in the global economy.

                   HISTORY OF COMMITMENT TO EDUCATION

    The importance TI places on K-12 math and science education is due 
in part to our corporate culture and to the changing skills and levels 
of education we require of our technical workforce. TI founders 
understood the need for highly skilled engineering talent to support 
the company's growth and competitiveness. As a result, they founded 
what later became the University of Texas at Dallas in 1961 to help 
supply the North Texas region and the company with master's level 
graduates in engineering. Today, the vast majority of our investment in 
higher education is directed toward research or the development of a 
technical workforce in science, technology, engineering and 
mathematics.
    Our hiring challenges and our involvement in public policy at the 
local, State and national levels, however, made it clear to us that in 
order to support long-term growth and improve our competitiveness in a 
worldwide marketplace it was imperative to invest in the K-12 education 
pipeline. And we have been doing so now for many years. In addition to 
the direct benefit of developing a highly qualified workforce, TI 
believes that having a high quality education system helps to 
strengthen the overall quality of life in our plant site communities. 
Today, TI's corporate philanthropy is largely focused on education. 
Each year we make financial contributions totaling millions of dollars 
in grants and other gifts to schools, colleges and educational 
programs.
    Our involvement in education advocates systemic reform on the 
local, State and national levels to close the achievement gap and 
improve student performance. Particularly in preschool and K-12 
education, TI seeks opportunities for fundamental change by developing 
programs with measurable success that can be replicated elsewhere. In 
recent years, TI's educational K-12 philanthropy has placed 
increasingly more emphasis than ever before on core areas, such as 
math, science and engineering, to help foster our next generation of 
high-tech innovators.
    TI has long been a leader in the effort to advance assessment and 
accountability processes in the Texas public schools, an approach that 
has been nationally recognized. TI served as a corporate co-chair of 
the business coalition to pass No Child Left Behind and is a member of 
the Business Coalition for Student Achievement supporting NCLB 
reauthorization. The BCSA calls for making science, technology, 
engineering and math (STEM) education and readiness for college and the 
workplace priorities under NCLB.
    While semiconductors are the key source of revenue for the company, 
TI's Education Technology business is also focused on improving math 
achievement for all students by fostering quality education instruction 
in mathematics education. I will also discuss some of its activities 
and the way in which it has embraced the letter and spirit of No Child 
Left Behind.

                          WORKFORCE CHALLENGES

    TI hires employees with skills at different levels, but our needs 
are evolving. Because of the continuing complexity of the design 
process and other technological advances, more is expected from 
engineering graduates in terms of the breadth of their engineering 
coursework exposure and experiences at all levels of higher education--
BS, MS and Ph.D.
    Semiconductor manufacturing has migrated from the era of placing a 
high value on manual dexterity on the assembly line to one of mental 
dexterity on the clean room floor. A TI manufacturing specialist must 
have a basic knowledge of math and science skills. Our technicians must 
have an associates' degree in semiconductor manufacturing technology 
and pass a comprehensive test that covers basic electronics, applied 
physics and basic chemistry.
    Finding individuals with the right skills set, particularly at the 
engineering level is a challenge. This will soon be exacerbated as the 
baby boomer retires. This one demographic change is expected to reduce 
the U.S. science and engineering workforce by half. Today only 17 
percent of U.S. college students receive undergraduate degrees in 
science and engineering, compared to 52 percent in China and 41 percent 
in Korea.
    The semiconductor industry depends on electrical engineers to 
design and develop the chips. In 2006, over half of the master's 
degrees and 71 percent of the PhDs in electrical engineering from U.S. 
universities were awarded to foreign nationals. The number of U.S. 
bachelor's degrees in electrical engineering has remained relatively 
flat and has declined since 1983. U.S. citizens and permanent residents 
enrolled in graduate degree programs in the physical sciences and 
engineering are only 2.7 percent higher than in 1983.
    We need to address student interest and skills in these fields at 
all stages of the pipeline, from K-12 through university and graduate-
level. Strong math skills are a gating factor for majoring in science 
or engineering.

               STRATEGIES FOR DRIVING STUDENT ACHIEVEMENT

    TI and its Foundation support several education programs, but I 
will discuss a few that speak most clearly to strategies that engage 
communities in improving education.
    Advanced Placement Strategies, Inc. is a non-profit organization 
that works with Texas schools and the private sector to plan and manage 
Advanced Placement (AP and Pre-AP incentive programs for teachers, 
students and schools. The program was created by the O'Donnell 
Foundation and has been supported by the Texas Instruments Foundation 
for several years. Exxon Mobil recently provided significant new 
funding to this program which has garnered considerable attention. It 
also serves as the basis for the Administration's request for an 
expansion of Advanced Placement funding. The program is designed to 
encourage students to take more rigorous college-level course work in 
high school, which prepares them for success in postsecondary 
education, as well as high-tech careers. The program provides financial 
incentives to teachers and students that are based upon achieving 
academic results, namely passing the AP test. Other program components 
include Pre-AP teacher preparation and support; student support, 
including tutoring, prep sessions and summer academies; and student 
exam fees for AP and PSAT exams.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a result of the AP Incentive program operated in the Dallas 
Independent School District, the 10 DISD Incentive Schools have seen 
the number of passing scores for all students in math and science grow 
1,135 percent from pre-incentive program levels (from 71 students 
passing in 1995 to 877 passing in 2006).
    In addition the number of passing scores for African-American and 
Hispanic students in math and science have grown 3,670 percent from 
pre-incentive program levels (10 students passing in 1995 to 377 in 
2003).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    TI Math Scholars.--Underscoring our commitment to build tomorrow's 
workforce through higher education, the TI Foundation just recently 
announced a $1.1 million gift to establish the TI Math Scholars program 
at the University of North Texas Dallas Campus. The program's goal is 
to encourage more students, especially underrepresented groups such as 
minorities and women to seek bachelor's degrees in mathematics and 
teacher certification. Scholars must agree to teach in the Dallas ISD 
(priority) or other southern Dallas County school districts for a 
minimum of 2 years upon graduation. The TI Math Scholars program will 
provide a focused degree plan in mathematics with high-quality 
instruction combined with direct student support initiatives. Full 
tuition, fees and a book allowance will be awarded to full-time 
students enrolled in the program. Our goal is 30 students for the 2007 
fall semester.
    The Infinity Project<SUP>SM</SUP> is a math and science-rich 
engineering curriculum for high school students created in 
collaboration between the Institute for Engineering Education at 
Southern Methodist University and TI. It is achieving success by 
helping change student attitudes towards math, science and engineering 
by exciting students about real world technology applications that are 
relevant to their lives, such as cell phones, MP3 players, digital 
special effects in movies and much more. This full-year curriculum is 
helping both students and teachers answer the age-old question, ``Why 
do I need to learn this math?'' By linking fundamental mathematical 
concepts found in algebra 2 (like polynomials and matrices) to the 
fascinating and cool applications, students are better prepared and 
motivated to pursue higher level math and science courses and to 
consider pursuing engineering and technical degrees.
    A hallmark of the program's early success has been the open 
communication between the Infinity Project and classroom teachers as 
the curriculum was developed and as it continues to be implemented. 
That two-way ``give and take'' has provided a deep understanding of 
student, teacher, principal and district administrator needs.
    The Infinity Project is in its seventh year and has been introduced 
in several schools across Texas and in 33 other States. Today, the 
program has numerous corporate sponsors and enjoys support from the 
National Science Foundation, the U.S. Department of Education, and 
several universities across the country including George Mason, Purdue, 
Rose-Hulman, Santa Clara University, University of Michigan, University 
of Central Florida, University of Arizona, and the New Jersey Institute 
of Technology, as well as several Texas institutions. Early data 
indicates that 40 percent of the students who complete the course say 
they are interested in pursuing engineering in the future. Nationally 
only 2 percent of the graduating high school population goes on to 
receive an engineering degree. We hope that Infinity will help boost 
those numbers. In a pilot study conducted in 2006 in a large urban high 
school, students taking the Infinity Project course had a 20 percentage 
point gain in their passing rate on the State-mandated math assessment, 
versus a 7 percentage point gain in the student population.
    Recently, at the urging of TI and other Infinity partners in Texas, 
the Texas State Board of Education recently voted to require students 
to complete successfully 4 years of math and sciences to earn a high 
school degree under the recommended ``college prep'' curriculum. And 
for the first time the board approved engineering as a course option 
which will fulfill one of the required science graduation credits.
    Middle School Math Intervention: Middle school is a critical time 
for math instruction. TI believes strongly that all students must be 
prepared to take and pass algebra as a basic skill.
    TI's Education Technology division has developed a systemic 
intervention with the Richardson Independent School District that has 
yielded promising results of a scalable, replicable program for 
improved student math performance and decreasing the achievement gap. 
Richardson school district is highly diverse with roughly 35 percent of 
the student body Caucasian, 31 percent African-American, 26 percent 
Hispanic and 8 percent Asian. Over 91 languages are spoken by the 
students.
    The RISD/TI middle school mathematics intervention identified and 
addressed the key components of the overall math education system, 
relying on research-proven math teaching methods, increasing teacher 
training on both math content and technology, increasing instructional 
time and implementing technology in a way that increases student 
engagement and gives teachers real-time feedback on which math concepts 
their students have mastered and those concepts the teachers need to 
spend more time on that students don't yet understand.
    The first year program was targeted at students who had failed the 
2005 Texas Assessment of Knowledge and Skills (TAKS). Independent 
evaluation research showed a very large effect size and a 33 percent 
pass rate on the TAKS vs. a 19 percent pass rate in a comparison group.
    As a result of this promising first year experience, Richardson ISD 
is now working with TI to scale the model to more schools and more 
grade levels, and we are working with additional districts in Texas, 
Ohio, and Florida to further bring the model to scale.
    As an education technology provider to schools, TI has taken the 
requirements and prescriptions of No Child Left Behind to heart, 
recognizing that technology used in the classroom must contribute to 
student achievement. TI recently provided testimony to the National 
Math Panel (which is scheduled to release its report later this year) 
that includes independent effectiveness research on the use of graphing 
technology in the classroom. Specifically, a meta-analysis of eight 
individual studies addressed the impact of graphing calculator use on 
student achievement and found strong evidence that student use of 
graphing calculators increased performance in algebra. TI is now 
conducting a 3-year randomized controlled trial study to further 
determine the effectiveness of various TI technologies and professional 
development in Algebra 1. It will be completed this year.

                            RECOMMENDATIONS

    First and foremost, we urge that Congress remain committed to and 
protect the integrity of the original law--with high standards, 
assessments aligned to those standards, greater accountability and 
highly qualified teachers as the formula for continuing to drive 
improvement. NCLB is making progress. Is it perfect? No. But it is 
fundamentally sound policy and should be retained.
    Second, we must expand high-quality professional development 
opportunities for current teachers and create opportunities and 
incentives to draw more qualified people into the teaching profession. 
Teacher quality is a huge determinant in student achievement.
    Third, Congress should support programs that would improve 
elementary, middle school math instruction, such as MathNow and the 
Math and Science Partnerships at the Department of Education and 
National Science Foundation. Effective programs such as the one I 
described in Richardson, for example, could be scaled under MathNow.
    Fourth, at the high school level, we should create opportunities 
and incentives for more high school students to take and pass Advanced 
Placement and International Baccalaureate courses.
    Finally, we in the private sector must also help by doing our part 
and ensuring that we are contributing positively to the goals of NCLB 
and math/science excellence. In that vein, we would like to suggest 
criteria for ramping public/private partnerships that we feel would 
help drive student achievement.

    1. Require that the program demonstrate how it supports and/or 
builds upon State standards in mathematics and/or science. Programs 
that do not support or enhance State standards can be a distraction to 
schools trying to comply with the requirements of No Child Left Behind, 
particularly in low-performing schools. Mike Moses, the former 
Superintendent of Schools for the Dallas Independent School District 
called unaligned programs ``random acts of kindness'' that while well-
intentioned, do not move the ball any closer to the ultimate goal.
    2. Require programs that involve professional development to tie 
into the No Child Left Behind requirement ensuring that teachers are 
highly qualified. Study after study demonstrates that teacher quality 
is a key determinant of student success. Private sector efforts should 
support that goal.
    3. Require that programs be replicable and identify the key 
elements for successful implementation.
    4. Ensure that programs demonstrate some clear result, i.e., 
increased test scores, students taking tougher courses, etc. Soft 
metrics on the number of ``students touched'' or ``teachers given 
professional development'' are not sufficient.

    America is at a crossroads, both in terms of how it responds to the 
competitive pressures of a worldwide economy and in terms of the focus 
and priority it gives to ensuring that all students are prepared with 
the math, science and literacy skills needed to succeed in that 
economy. Business, government and the academic establishments need to 
work together, now more than ever, to ensure that we are achieving the 
right goals and that we are equipping our children with the world-class 
education they need. This legislation can be an effective tool in 
aligning private sector resources around this objective.
    I want to commend the committee for its tireless work in support of 
education excellence. I am happy to answer any questions you might 
have.

    Senator Reed. Thank you very much, Mr. Ritter and we've 
been joined by Senator Clinton. I don't know if you have any 
opening remarks? Thank you very much.
    Now let me recognize Daniel Cardinali and thank you for 
observing our 5-minute rule. It's flexible but thank you and 
Mr. Cardinali and Kathy and Wendy, if you could do that also, 
I'd appreciate it. Your whole statements will be put in the 
record.
    Mr. Cardinali has served as President of Communities in 
Schools since May 2004. He is responsible for the day-to-day 
operations and provides guidance to a network of 200 local 
nonprofits and 14 State offices. Communities in Schools 
annually provides mentoring, tutoring, before and after school 
programs and other services to about one million students in 
3,000 schools nationwide. So thank you very much for joining 
us, Mr. Cardinali.

   STATEMENT OF DANIEL CARDINALI, PRESIDENT, COMMUNITIES IN 
              SCHOOLS, INC., ALEXANDRIA, VIRGINIA

    Mr. Cardinali. Thank you, Senator Reed and members of the 
committee. It's an honor to be able to testify today with you 
all. I just wanted to highlight a little bit about Communities 
in Schools' 30 years experience and where we're drawing from 
for our remarks today.
    We are in 27 States and the District of Columbia working 
with over a million young people and a quarter of a million 
parents or guardians in about 3,200 public schools. The goal of 
our organization is to keep young people in school so they 
graduate on time and to close the achievement gap. It is from 
this 30-year experience today that we want to comment on why we 
believe something called Community-Based Integrated Student 
Support Services are an integral part of solving the drop-out 
problem and helping close the achievement gap.
    These recommendations that we will make today--three--are 
really rooted in good, sound education practices and good 
fiscal responsibility. As you all are well aware, every 9 
seconds, we lose a student. Every day, we lose 7,000 students 
and on an annual basis, we lose about 1.2 million students who 
do not graduate on time. That would be like this year, losing 
the city of Philadelphia completely or the city of Dallas next 
year.
    So to say that we have a drop-out problem is to understate 
the crisis that we're facing. The good news is that there have 
been enormous strides in improving public education. Increased 
accountability system, increased support to teachers and rigor 
of teachers and certainly increased rigor in the classroom.
    It is, however, Communities in Schools and those of us in 
the Community-Based Integrated Student Service provision 
sector--it is our opinion that all of these strategies are 
utterly necessary but insufficient for improving public 
education unless an integrated strategy be included to provide 
student support services, particularly for those most at risk.
    We know, out of our experience and the research is 
certainly clear that the most rigorous curriculum and highly 
qualified teachers will not be able to be effective if the 
basic social service needs of young people are not met. We know 
and the research bears it out that providing the right 
nonacademic social service interventions, students have a much 
better chance at improving academically, especially those that 
are most at risk.
    So what is this effective strategy for working with at-risk 
young people? We call it Community-Based Integrated Student 
Supports. It is a simple notion. They are interventions that 
work to improve student achievement by linking community 
resources with the academic and social service needs of 
students.
    There is a fair amount of growing evidence and we've heard 
it today that the link between academic achievement and 
integrated student support services actually improve academic 
performance for at-risk young people.
    So what is the magic of community-based integrated student 
support services? It is that there is a single point of contact 
in the school. We call it a site coordinator. It is someone who 
is dedicated to working with principals and teachers to 
identify the most at-risk young people and to identify the best 
community-based resources that have a proven track record and 
linking those resources to improve student achievement.
    The goal is not just to improve student achievement, 
however. It is to free teachers up to be highly qualified 
educators and not social workers and it is to unfetter 
principals to lead the school transformation at their school. 
Communities in Schools have spent the last 30 years helping 
pioneer and refine the whole group of folks, community-based 
integrated student support services. So it is from this 
experience that we humbly make three recommendations to the 
committee.
    The first is that there be funding for site coordinators to 
be placed in schools across the United States. We'd like to 
call it the Keeping Pace Act, which highlights this 
recommendation as the centerpiece of its recommendations.
    The second recommendation we'd like to make today is that 
when a school goes on the list that needs improvement or for 
not making AYP, that community-based integrated student support 
services be a required consideration by the superintendent and 
principal to improve that school.
    The final recommendation today we'd like you to consider is 
supporting a national initiative that provides training and 
technical assistance, research and evaluation and ultimately 
credentializing, to ensure that there is a healthy community of 
regulated community-based service providers, ensuring that 
student achievement is a forefront of their activity.
    I'd like to close by saying thank you again for the 
opportunity to testify and it is our recommendation that 
community-based integrated student support services be an 
integral component of any of the work you do regarding the 
reauthorization of NCLB. Thank you very much.
    [The prepared statement of Mr. Cardinali follows:]

               Prepared Statement of Daniel J. Cardinali

                              INTRODUCTION

    Chairman Kennedy, Ranking Member Enzi, and members of the 
committee, thank you for the invitation to testify today. So much of 
our national dialogue concerning our Nation's epidemic dropout rate and 
persistent achievement gaps centers on the challenges we face and not 
the solutions that can meet those challenges. Today, I want to shift 
the discussion and focus to a proven solution--time-tested, research-
based, scalable, and illustrated in the lives of millions of students 
every year. I want to talk about community-based, integrated student 
services and the need for Federal policy to embrace this strategy among 
others being pursued to ensure educational success for all students. My 
name is Dan Cardinali and I am the President of Communities In Schools, 
the Nation's largest dropout prevention organization.
    For 30 years, Communities In Schools has worked to connect 
community resources with the students who need them most. Whether 
students need tutoring, homework help, eyeglasses, adults who believe 
in them, or just a safe place to be, Communities In Schools finds the 
resources and delivers them right inside the schools where young people 
spend their days. Communities In Schools reaches low performing 
students and students at risk of dropping out of school [collectively 
``at-risk students''] in 27 States and the District of Columbia in more 
than 3,250 schools. Our model, serving students through community-
based, integrated student services, has proven to work for all types of 
communities--urban, rural, and suburban--and at all levels of the 
elementary and secondary pipeline. Eighty to ninety percent of our 
tracked students show improvement in academic performance, behavior, 
and attendance. During the school year, the number of suspensions among 
our tracked students is reduced, and the rate of promotion to the next 
grade level also increases.
    Today, I'd like to address three points regarding this model of 
student and school support:

    1. A description of the model--what it means operationally for 
schools, how it is implemented, and how it meets the needs of at-risk 
students.
    2. The undisputed evidence that the model works--the national data, 
the educational research, and most importantly, the stories of success 
that illustrate how community-based, integrated student services 
actually make the difference in lives of students throughout our 
country.
    3. The ways in which Federal law should embrace this effort--
integrating this proven strategy into the accountability requirements 
of the Elementary and Secondary Schools Act when that legislation is 
reauthorized.

    I hope that when I conclude my remarks, the committee will better 
understand the wisdom--educationally and fiscally--of making modest 
investments that have the power to transform students' and families' 
lives by systemically addressing our Nation's dropout and achievement 
gap crises.

         THE COMMUNITY-BASED, INTEGRATED STUDENT SERVICES MODEL

    Let me begin with a brief description of the community-based 
integrated student services model. Community-based, integrated student 
services are interventions that improve student achievement by 
connecting already existing resources in the community--such as 
mentoring, physical and mental health services, career and college 
guidance, service-learning, and after-school programs--with public 
schools to help meet the social, emotional, physical--as well as 
academic--needs of students. By bringing existing services, parents, 
and volunteers into schools to work with educators, student needs can 
be met on an individual, case-by-case basis and through schoolwide 
programs. Through the efforts of a single point of contact (which we 
refer to as a school site coordinator), student needs are assessed, and 
research-based connections are made between students and targeted 
community resources.
    If it's this simple, one might ask, ``Why aren't all schools 
pursuing these resources and services?'' In part, the answer lies in 
the fact that the existing resources in a community that are available 
to help students and schools are frequently in place, but they're in 
the wrong place. They are scattered all over town, difficult to access, 
and open for limited hours. Each support system--an afterschool 
program, a doctor's office, a mentoring program--has its independent 
bureaucracy, and requires its own paperwork and systems. Moreover, 
these systems aren't coordinated in a way to ensure that the delivery 
is coordinated and personalized to a student's specific needs. The 
community-based, integrated services model connects these services to 
schools and students in an organized way in order to assist students 
effectively and efficiently.
    For example, consider Tara, an 11-year-old struggling in middle 
school. She needs physical and mental health care, an afterschool 
program, and tutoring. She has a single mother who works for an hourly 
wage--meaning she doesn't get paid if she doesn't go to work--and 
doesn't own a car. To make all the appointments, Tara's mother has to 
take multiple days off work and some of the services from which her 
daughter could benefit aren't even possible to access, due to cost or 
distance from their home or public transportation. In short, getting 
her daughter access to needed services is frustrating and a serious 
financial hardship, not to mention a logistical nightmare. But in the 
community-based integrated services model, the school becomes the 
delivery point for all these services. What's more, there's a dedicated 
person whose job it is to ensure that services are delivered in a 
personal, accountable, and coordinated way. (A graphic in Appendix A 
illustrates how the model works.)
    Finally, it is important to recognize that the community-based, 
integrated student services model does not fundamentally represent yet 
another new program on top of others. Rather, the model coordinates 
existing resources in order to maximize their impact and create better 
outcomes for students. It takes services that often exist in silos, 
uncoordinated, and difficult to access and leverages them through 
connections to students in need. Critical to the success of this model 
are volunteers. For example, Communities In Schools' heavily engages 
volunteers--about 50,000 annually in recent years-- as well as existing 
community-based service organizations. For this reason, these 
initiatives are extraordinarily cost-effective, typically requiring 
$400 or less per year for each tracked student. In addition, each $100 
of public resources that Communities In Schools uses leverages $82 of 
private resources! In short, it's not about how much money is spent; 
it's about leveraging and spending existing resources better.
the proven effectiveness of community-based integrated student services
    Extensive research reflects that community-based, integrated 
student services are necessary components of effective, school-based 
efforts to increase graduation rates and improve student achievement. 
More than 70 percent of the students served by Communities In Schools 
are poor and of color--groups most at risk of dropping out. While the 
national dropout rate is 4.8 percent, the dropout rate for African-
American and Latino students is between 6 and 7 percent. As we know, 
dropping out is not an isolated event. It is a cumulative process 
associated with well-recognized risk factors. Our research demonstrates 
that only 2 percent of students who were tracked as potential dropouts 
and provided community-based, integrated services actually dropped out 
of school, cutting in half the national dropout rate.\1\ These services 
have been evaluated with respect to their impact on the risk factors 
most frequently associated with high school dropouts and significantly:
---------------------------------------------------------------------------
    \1\ Extrapolated from findings of Communities In Schools, 
``Connecting Kids with Community Resources,'' 2004-2005 Results from 
the Network report. http://www.cisnet.org/media/pubs.asp.

    <bullet> Improve student attendance in school (in our study 82 
percent of students had better attendance);
    <bullet> Reduce behavior incidents (in our study 86 percent had 
improved behavior);
    <bullet> Reduce incidents of suspension (in our study 85 percent 
had fewer suspensions);
    <bullet> Improve academic achievement (in our study 89 percent 
improved academics);
    <bullet> Improve school retention (in our study 98 percent remained 
in school); and
    <bullet> Raise graduation rates (in our study 85 percent of 
eligible seniors graduated).\2\
---------------------------------------------------------------------------
    \2\ Extrapolated from findings of Communities In Schools, 
``Connecting Kids With Community Resources,'' 2004-2005 Results From 
the Network report. http://www.cisnet.org/media/pubs.asp.

    Moreover, independent research has verified the effectiveness of 
the community-based, integrated student services model. For instance, a 
comprehensive evaluation of nine school sites in three New England 
States that participated in a community-based school environment 
education project showed growth in teacher enthusiasm and skill, 
increases in student engagement and learning, academic achievement, and 
knowledge about the social and natural environment.\3\ Further, 92 
percent of schools participating in a separate integrated learning 
environment program found that students academically outperformed their 
peers in traditional programs as measured by standardized tests, 
classroom behavior problems reduced by as much as 95 percent, and 
attendance increased.\4\
---------------------------------------------------------------------------
    \3\ PEER Associates, ``An Evaluation of Project Co-Seed: Community-
Based School Environmental Project, 2003-2004'' (Antioch New England 
Institute and the Place-Based Education Evaluation Collaborative, 
December 2004).
    \4\ The State Education and Environmental Roundtable (SEER). http:/
/www.seer.org/pages/research. Cited in materials from the South 
Carolina EIC School Network.
---------------------------------------------------------------------------
    We also know that this model is grounded enough in research and 
theory, yet flexible enough, to work in diverse environments. 
Communities In Schools affiliates serve all types of students in all 
types of schools and communities--urban, suburban, and rural. Students 
in these programs range from native Alaskans to migrant children to 
disadvantaged youth and every type of child in between. In Alaska, our 
relatively new Communities In Schools affiliate works to serve more 
than 1,600 students in 19 schools of various sizes all across this vast 
State, from Juneau to Nome. In North Carolina, Communities In Schools 
affiliates make a difference for 80,000 students at 411 school sites 
from Charlotte to Cape Fear. And in Texas, more than 440,000 students 
are directly connected with services in more than 630 school sites.
    Beyond the data points, the impact of these services can be most 
vividly seen in the lives of actual students. For instance:

    <bullet> Martha is a current student in one of our affiliates in 
central Texas. She is 15 and is repeating the 9th grade. Earlier in the 
year, she was debating dropping out of school and was failing all of 
her classes. But her problems weren't just academic. Martha had had a 
series of abusive relationships with boys and wasn't getting along 
socially with other students. She struggled at home, too, at one point 
even running away. After a referral by a teacher to Communities In 
Schools, a site coordinator in her school helped connect Martha with a 
tutor, arrange for a psychological evaluation in a timely way (the wait 
was usually 3 to 6 months), and, once she was diagnosed with 
depression, facilitate therapy for her and for her family. She also 
participated in a community organization, Safeplace, which offers a 
program for teens who had been in abusive relationships. With the help 
of these interventions and her caring site coordinator, Martha has 
undergone a 180-degree transformation. Today, she's working hard in 
school, at her family and personal relationships, and is back on track.
    <bullet> In Philadelphia, 22-year old Rasheedah Phillips is a 
graduate of Temple University and a law student. Rasheedah's journey 
has been characterized by her determination and the support she 
received from Communities In Schools. After becoming pregnant as a 
freshman in high school, Rasheedah was referred to Communities In 
Schools to participate in the Education Leading to Employment and 
Career Training, an initiative administered locally as a partnership 
between the School District of Philadelphia and Communities In Schools. 
She participated in the Teen Parent Classrooms program which provides 
pregnant and parenting teens with academic, health, and social service 
supports they need to complete their education and transition to work 
or postsecondary education. Through this program, Rasheedah drew on the 
support of staff members, counselors, and social workers who encouraged 
her and kept her and her daughter healthy and on track to graduate. Her 
daughter, now 7 years old, has a mom who has completed her first year 
of law school.
    <bullet> Acton Archie graduated with honors from North Carolina 
State and has a good job in the information technology field, but such 
a bright future was by no means guaranteed. Acton moved 12 times in 12 
years and grew up in a rough neighborhood. His father had been murdered 
when he was five and his mother was a drug addict. Acton had already 
been in trouble when he became involved with Communities In Schools, 
where mentors helped Acton focus on improving academically. He 
participated in Communities In Schools' ThinkCOLLEGE program which 
helps students find scholarships and qualify for higher education. 
Acton won two scholarships that helped him to attend college. He now 
works as a business analyst.
    <bullet> Robert Guy moved around a lot during his growing up years 
and struggled to find his place. In order to move forward in school and 
in life, he needed to focus on improving his grades and study skills. 
Communities In Schools helped him through its non-traditional high 
school, the Classic City Performance Learning Center in Athens, 
Georgia. There, surrounded by supportive staff--including a learning 
facilitator and advisor--teachers, and other students, Robert thrived. 
He worked hard to improve his grades and study skills and became a 
leader in the school. In 2 years, his efforts helped him to win a 
scholarship to Morehouse College, where he is pursuing his 
undergraduate degree and on the Dean's list.

    These are just four stories of the thousands that illustrate the 
way in which community-based, integrated student services can help 
students excel and achieve their dreams. For every student like Martha, 
Rasheedah, Acton, and Robert, however, there are thousands more who 
need that assistance.
    It is, therefore, no surprise that the bipartisan Commission on No 
Child Left Behind in its recently released report, Beyond NCLB: 
Fulfilling the Promise to Our Nation's Children, concluded:

          We believe it is crucial to address students' behavioral and 
        social needs in addition to their academic needs. Therefore, we 
        recommend requiring schools to determine the availability of 
        social services and mental health services for their students 
        while developing the school's improvement plan. Schools . . . 
        should fully understand all needs of their students and the 
        resources to meet those needs. Academic interventions can be 
        more effective when coupled with an assessment of the mental 
        health and other needs of students.\5\
---------------------------------------------------------------------------
    \5\ The Commission on No Child Left Behind. Beyond No Child Left 
Behind (2007). http://www.aspeninstitute.org / site / c.huLWJeMRKpH / 
b.938015 / k.40DA/Commission_on_No_ 
Child_Left_Behind.htm/, 94.

    And, just last year, the Appleseed Foundation conducted a national 
study that involved a 9-month investigation in 18 school districts in 
six States, where (among others) more than 100 school district and 
school leaders and teachers were interviewed and where nearly 30 parent 
focus groups were conducted. Appleseed concluded in one of its five 
recommendations that districts and schools ``should leverage their own 
limited support by engaging community organizations.'' Specifically, 
---------------------------------------------------------------------------
Appleseed found:

        [There is] nearly universal acknowledgement by educators, 
        parent groups and community groups about the vital impact that 
        supporting trusted community organizations can have in helping 
        students and schools succeed.\6\
---------------------------------------------------------------------------
    \6\ Appleseed Foundation, ``It Takes a Parent: Transforming 
Education in the Wake of the No Child Left Behind Act,'' (2006). http:/
/www.appleseednetwork.org/servlet/PublicationInfo? 
articleld=211, 35.

---------------------------------------------------------------------------
    Thus, the report recommended that districts and schools should:

    <bullet> Evaluate student needs and available resources . . . The 
first step in leveraging community support is evaluating the needs of 
students and the kinds of resources that are available to meet them.
    <bullet> Ensure that staff are charged with making community 
connections . . . Districts and schools should clearly designate 
individuals who are responsible for making the necessary connections 
between community resources and student/parent needs.
    <bullet> Develop clear areas of responsibility and measure results 
. . . [A]ny outreach and services coordination plan should be fully 
integrated and aligned with the district's overall accountability 
plan.\7\
---------------------------------------------------------------------------
    \7\ Appleseed Foundation, ``It Takes a Parent: Transforming 
Education in the Wake of the No Child Left Behind Act,'' (2006). http:/
/www.appleseednetwork.org/servlet/PublicationInfo? 
articleld=211, 35.
---------------------------------------------------------------------------
                THE IMPERATIVE FOR CONGRESSIONAL ACTION

    This basic framework proposed by the Appleseed study, which is 
aligned with the theory and operation of the community-based integrated 
student services model, should therefore be at the forefront of 
conversations regarding the reauthorization of the Elementary and 
Secondary Education Act. With their passage over 5 years ago, the 
amendments to ESEA reflected in The No Child Left Behind Act of 2001 
focused on a number of core academic accountability measures, including 
the development of accountability systems with data transparency, more 
expansive use of standardized testing, and greater emphasis on teacher 
quality. However, while those areas of focus are vitally important, 
research and practice both tell us (as discussed above) that more is 
required to support students who are at significant risk of dropping 
out of school or not achieving academic success. And it is important to 
recognize that 5 years since the passage of No Child Left Behind, not 
only are the dropout crisis and achievement gap real, but they are, in 
the vast majority of cases, preventable. Thus, in short, Federal law 
addresses a necessary but not sufficient set of conditions and 
challenges that must be addressed if the goal of leaving no child 
behind is to be realized.
    On January 31, 2007, Communities In Schools presented to Congress 
our major recommendations regarding the reauthorization of ESEA that 
addresses that gap. (I have attached a copy of our policy brief and 
these recommendations as Appendix B in my testimony.) In summary, 
Communities In Schools recommends that Federal law incorporate as a 
major element of reform community-based, integrated strategies in the 
three ways:

    1. The establishment of school-based coordinators responsible for 
assessing and connecting student needs and community resources;
    2. Expansion of the range of school improvement steps required of 
schools not making Adequate Yearly Progress (AYP), including 
consideration of ways community-based integrated student services might 
be leveraged to support their efforts; and
    3. Authorization of funding for a new national initiative that will 
establish and implement research- and evidence-based standards 
associated with community-based integrated student services in order to 
support the provision of systemic, replicable, and cost-effective 
services.

    First, Congress should provide competitive grant funding for 
community-based, nonprofit organizations to provide integrated, school-
based services to at-risk students with funding targeted toward support 
for dedicated staff in schools that can identify and match student 
needs and community resources to meet those needs. The effective and 
efficient delivery of community-based, integrated services to students 
depends upon this important staff foundation. This is why Communities 
in Schools is so pleased to support the legislation that Senator 
Kennedy has just authored, the Keeping PACE Act. For the first time in 
history, this legislation, if passed, would incorporate as part of ESEA 
key elements of a time-tested model to advance meaningful community and 
parental involvement in schools. Specifically, that legislation 
recognizes the importance of dedicated staff who are charged with the 
responsibility of connecting community resources with students in need, 
as well as the wisdom of a Federal investment in the community sector--
all with key elements of accountability that would drive program 
operations and the evaluation of outcomes.
    Second, Congress should expand the range of support for schools not 
making Adequate Yearly Progress (AYP). In basic terms, we must move to 
a system of differentiated consequences for schools not making AYP, so 
that the support or intervention provided to those schools is directly 
aligned with and proportional to the actual schools' needs--and 
therefore more likely to help the school achieve its improvement goals. 
I know that you have heard from many charged with implementing Federal 
law about the vital need to take this step, a point on which we 
concur.\8\ Communities In Schools is asking that all schools be 
required to evaluate and, as appropriate, pursue the effective and 
efficient delivery of community-based, integrated student services when 
they do not meet State performance goals over time. This focus should 
be a central--and required--element of school improvement planning for 
schools that are struggling to meet the needs of their students.
---------------------------------------------------------------------------
    \8\ See Recommendations to Reauthorize the Elementary and Secondary 
Education Act, Council of Chief State School Officers (2007), ``The 
reauthorized ESEA should encourage a full range of rewards and 
consequences for districts and schools that differ appropriately in 
nature and degree, based, for example, on whether schools miss AYP by a 
little versus a lot. CCSSO urges Congress to amend NCLB Section 1116 to 
permit States to exercise appropriate judgment and differentiate both 
accountability determinations and consequences based on sound evidence. 
This includes targeting interventions to the lowest performing 
students/subgroups that do not meet AYP and maintaining consequences 
(without escalation) where schools are demonstrating significant plans 
and progress in addressing identified underperformance.'' 
www.ccsso.org/content/pdfs/ESEA_rec_final.pdf, 4.
---------------------------------------------------------------------------
    Third, Congress should authorize funding for a new initiative that 
will establish and implement a national framework for research- and 
evidence-based criteria to guide the provision of systemic, scalable, 
cost-effective, and educationally sound services. The delivery of 
community-based, integrated student services in schools nationwide 
should be guided by criteria and standards that govern the delivery of 
training, technical assistance, certification, and evaluation services 
for community-based organizations that provide integrated student 
services to at-risk youth. For the purposes of educational 
effectiveness and fiscal efficiency, we believe that Congress should 
authorize a national initiative that:

    <bullet> Establishes systemic, replicable, and research-based 
support for the local provision of community-based, integrated student 
services;
    <bullet> Ensures that the Federal investment adheres to well-
developed, research- and evidence-based models, and that students are 
receiving high-quality, effective, and cost-efficient services and 
interventions;
    <bullet> Provides school coordinators, who play a critical role in 
making connections between community resources and students in need, 
access to high-quality technical assistance and training; and
    <bullet> Evaluates programs based on national standards.

                               CONCLUSION

    The role of community organizations in schools offers tremendous 
potential to improve the lives of students and to leverage the public's 
current investment in education. Strategies to integrate student 
services are effective ways of reaching students and helping them to 
achieve their fullest potential. Given the private sector volunteer 
commitment associated with these services, those strategies are also 
fiscally smart. Congress should, therefore, take action by providing 
systemic funding and structure to ensure that community-based student 
services can effectively leverage and maximize the impact of other 
Federal investments in education.
    Indeed, the cost of inaction is very high. If we fail to address 
the dropout epidemic and achievement gaps, the consequences will affect 
not only individual students, but also our Nation's economic prosperity 
and national security interests. The American Youth Policy Forum 
estimates that ``[i]ncreasing the high school completion rate by 1 
percent for all men ages 20-60 would save the United States $1.4 
billion annually in reduced costs associated with crime.'' In addition, 
``dropouts are also substantially more likely to rely on public 
assistance. The estimated lifetime revenue loss for male dropouts ages 
25-34 is $944 billion. The cost to the public of their crime and 
welfare benefits is estimated to total $24 billion annually.\9\
---------------------------------------------------------------------------
    \9\ American Youth Policy Forum, ``Every Nine Seconds in America a 
Student Becomes a Dropout,'' Excerpted from Whatever it Takes: How 
Twelve Communities are Reconnecting Out-of-School Youth (2006). http://
www.aypf.org/publications/EveryNineSeconds.pdf, 3.
---------------------------------------------------------------------------
    The simple truth is that many students who are at risk of dropping 
out or failing to achieve their highest potential have the talent, 
intelligence, and potential to achieve, but they need assistance to 
address challenges that stand in their way. And this assistance extends 
beyond the classroom. This is why Federal law should include systemic 
support for comprehensive reform strategies that include community-
based, integrated student services.
    Let me conclude by quoting Heather Weiss, the Director of the 
Harvard Family Research Project, who has said:

          ``The question we must ask is, in addition to quality 
        schools, what nonschool learning resources should we invest in 
        and scale up to improve educational outcomes, narrow 
        achievement gaps, and equip our children with the knowledge and 
        skills needed to succeed in the complex and global 21st 
        century?'' Disadvantaged students often need more than the best 
        teachers or the most rigorous curriculum in order to succeed--
        they need additional supports that will reinforce and leverage 
        the investments of educators in our schools.'' \10\
---------------------------------------------------------------------------
    \10\ Heather Weiss, ``From the Director's Desk,'' The Evaluation 
Exchange, 10 (1), (2005). http://www.gse.harvard.edu/hfrp/eval/issue29/
director.html, 1.

    I hope that Congress and this Administration will conclude, as Ms. 
Weiss has, that ''[n]ow is the time . . . [for] action.''
    I want to thank you again for the opportunity to testify before you 
today. Senator Kennedy and Senator Isakson, I want to thank each of you 
for your support in this vital sector. I look forward to answering any 
questions that you might have.

                               APPENDIX A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               APPENDIX B

                         Communities In Schools

    A NATIONAL EDUCATIONAL IMPERATIVE: SUPPORT FOR COMMUNITY-BASED, 
 INTEGRATED STUDENT SERVICES IN THE REAUTHORIZATION OF THE ELEMENTARY 
                      AND SECONDARY EDUCATION ACT

    The dropout epidemic in the United States merits immediate, large-
scale attention from policymakers . . .

            --Bridgeland, et al., The Silent Epidemic: Perspectives of 
            High School Dropouts (2006)

                            I. INTRODUCTION

What Are Community Based, Integrated Student Services?
    Community-based integrated student services are interventions that 
improve student achievement by connecting community resources with both 
the academic and social service needs of students. Such interventions 
focus programmatic energy resources, and time on shared school and 
student goals. Through the efforts of a single point of contact, 
individual student needs are assessed and research-based connections 
made between students and targeted community resources.
    Research and experience indisputably reflect the continuing crisis 
in education: America's youth are dropping out of school in record 
numbers, and gaps in student performance among low-income and minority 
students continue to widen. In the wake of a call to action by 
educators, business leaders, and government officials, attention to 
these issues has generally focused on (and been limited to) academic 
issues. Notably, the No Child Left Behind Act of 2001 has focused 
nearly exclusively on core academic accountability measures--
standardized testing and related accountability systems, teacher 
quality, supplemental educational services, and the like.
    Those areas of focus are, indeed, vitally important, but they do 
not reflect the research- and practice-based reality that more is 
required to support most at-risk students. They do not reflect the 
reality that at-risk students often need more than the best teachers or 
the most rigorous curriculum in order to succeed--they need additional 
supports that will reinforce the work of educators in the schools. More 
specifically, these areas of focus do not reflect the positive impact 
that community-based, integrated student services have on at-risk 
students and their families. One recent national study found a ``nearly 
universal acknowledgement by educators, parent groups and community 
groups about the vital impact that supporting [and] trusted community 
organizations [could] have in helping students and schools succeed.'' 
\1\
    In thousands of schools throughout the country, organizations 
provide community-based, integrated student services as a way to help 
at-risk students--and their schools--succeed. These services, ranging 
from providing mentors to meeting health and counseling needs, vary by 
student, but by definition are systemically linked to school-based 
efforts to meet the health, safety and counseling needs of at-risk 
youth. They include an array of student-specific support services 
centered on the establishment of:

    a. A one-on-one relationship with adults who mentor or help guide 
students;
    b. A safe place for students to learn and develop before, during 
and after the school day;
    c. Connections to health professionals and counselors;
    d. Connections with college and career counselors--as well as 
internship opportunities--that can help students envision their 
potential for achieving significant goals; and
    e. Connections to community service and service-learning 
opportunities.'' \2\

    Despite overwhelming evidence of the need for--and positive impact 
of--community-based, integrated student services on student learning 
outcomes,\3\ Federal law has not included support for comprehensive 
reform strategies that include these services. And, too few schools 
have resources to provide them. Thus, as put cogently by the director 
of the Harvard Family Research Project, many years of research confirm 
that ``[n]ow is the time . . . [for] action. The question we must ask 
is, in addition to quality schools, what nonschool learning resources 
should we invest in and scale up to improve educational outcomes, 
narrow achievement gaps, and equip our children with the knowledge and 
skills needed to succeed in the complex and global 21st century?'' \4\ 
The simple answer is that we must, as a nation, invest in more 
comprehensive, proven and cost-efficient strategies that will help 
reduce dropout rates and close the achievement gaps. Supporting 
community-based, integrated student services is one critical step in 
that direction.

II. WHAT RESEARCH AND EXPERIENCE TELL US: FACTS ABOUT COMMUNITY-BASED, 
                      INTEGRATED STUDENT SERVICES

    1. The dropout epidemic and the pervasive achievement gap, both of 
which disproportionately affect low-income and minority students, are 
the central, unmet challenges facing public education in America.
    <bullet> ``For the nation's ethnic and racial minorities, 
particularly Hispanics and African Americans, the consequences of 
dropping out are . . . daunting. There is a high school dropout crisis 
far beyond the imagination of most Americans, concentrated in urban 
schools and relegating many thousands of minority children to a life of 
failure.'' \5\
    <bullet> A half-dozen recent studies report ``little progress'' in 
closing the achievement gap, and the ``landscape'' reflects that the 
gap between African-Americans or Hispanics and white students is 
widening over the course of 12 years in school.\6\
    <bullet> ``It is clear that minority students and poor students 
have disproportionately faced conditions that are hindrances to 
achieving at levels reached by majority students, from birth to school 
completion--if, in fact, they complete. At different points along the 
way they will, on average, be behind white children in their cognitive 
development.'' \7\

    2. The failure to comprehensively address the dropout epidemic and 
the corresponding achievement gaps among students will result in 
continuation of the status quo--with adverse consequences affecting 
America's economic prosperity and national security interests.

    <bullet> ``Increasing the high school completion rate by 1 percent 
for all men ages 20-60 would save the United States $1.4 billion 
annually in reduced costs associated with crime.'' \8\
    <bullet> ``Dropouts are substantially more likely to rely on public 
assistance than those with a high school diploma. The estimated 
lifetime revenue loss for male dropouts ages 25-34 is $944 billion. The 
cost to the public of their crime and welfare benefits is estimated to 
total $24 billion annually.'' \9\
    <bullet> ``The United States would save $41.8 billion in health 
care costs if the 600,000 young people who dropped out in 2004 were to 
complete 1 additional year of education. If only one-third of high 
school dropouts were to earn a high school diploma, Federal savings in 
reduced costs for food stamps, housing assistance, and Temporary 
Assistance for Needy Families would amount to $10.8 billion annually.'' 
\10\
    <bullet> Societal costs of students dropping out--including welfare 
and crime costs--make it ``crucial to have a national focus on the 
identification and broad use of efficient and replicable dropout 
prevention . . . programs?'' \11\

    3. The American public has identified the need to improve schools 
and student performance as a national priority.

    <bullet> ``[There] is virtually an undisputable agreement that 
education is a good thing, indeed an irreplaceable element in achieving 
success in the current and future marketplace . . .'' \12\
    <bullet> ``The adverse impact that dropping out of school has on 
both those who drop out and society itself has long been recognized . . 
. Given the multiple adverse consequences associated with dropping out, 
lowering the dropout rate has long been a goal of educators and 
legislators.'' \13\

    4. Efforts to eliminate the epidemic of students dropping out of 
school and the pervasive achievement gaps among students will succeed 
only if they are comprehensive and student-centered. In addition to 
classroom-based reforms, schools must ensure that a definable range of 
community-based, integrated student services are provided.

    <bullet> ``Schools alone cannot resolve problems of violence, 
family crises, mental health challenges, and other child and family 
problems that naturally find their way to the school house door?'' \14\
    <bullet> Non-school supports ``will not achieve the goal of making 
sure that children are successful'' if they are provided in the ``same 
old ways--piecemeal, in silos, disconnected from each other and from 
schools . . . To be effective, non-school supports must be ``linked and 
aligned with each other and with schools to maximize their 
effectiveness in leveling the playing field for children.'' \15\
    <bullet> ``Intentional strategies'' to link community partners with 
students and families in need ``can overcome fragmentation'' within a 
school and lead to positive student outcomes.\16\
    <bullet> Evidence of positive impacts from these integrated 
approaches includes better family functioning and parental involvement, 
healthy youth development and improved social behavior, improved 
academic achievement and learning outcomes, and enhanced community 
life.'' \17\
    <bullet> A review of 45 prevention and intervention studies 
addressing dropouts or school completion establishes that ``there is no 
single best program; preventing dropout can occur in a variety of 
ways.'' ``Student engagement'' is a ``key ingredient,'' with its focus 
on ``promoting school completion through approaches that . . . involve 
multiple systems in the students' lives, occur over time, and are 
individualized to meet student needs.'' \18\
    5. Community-based, integrated student services, which provide 
vital support in mitigating the risk that students will drop out of 
school and in improving student achievement, permit school and district 
officials to focus their energies on issues central to classroom 
learning.

    <bullet> ``Adolescents who participate regularly in community-based 
youth development programs (including arts, sports, and community 
service) have better academic and social outcomes--as well as higher 
education and career aspiration--than other, similar teens. We also 
know that when the core academic curriculum is tied to the community, 
removing the artificial separation between the classroom and the real 
world, student outcomes are improved.'' \19\
    <bullet> ``Through community-based observation, discussion, and 
problem solving, students acquire both facts and multiple perspectives 
against which to refine their existing knowledge and skills. Teachers 
also connect school-day learning with learning in before- and after-
school, community-based, and work-study programs and value these venues 
as important opportunities for students to apply skills from across the 
curriculum.'' \20\
    <bullet> ``In community schools, educators do not operate on the 
assumption that the school has all the assets and expertise necessary 
to improve student learning. Instead, they collaborate with partners 
who demonstrate they are committed to results that are important to the 
school system and the community. Schools are transformed into much more 
than just a portfolio of programs and services. They become a powerful 
agent for change in the lives of young people and their families and 
improve the climate of the entire school.'' \21\

    6. Well designed and implemented community-based programs 
effectively leverage non-public resources and are cost effective.

    <bullet> One national nonprofit organization, with a 30-year 
history of providing at-risk youth with community-based, integrated 
services, serves nearly 1 million young people nationwide in more than 
3,000 schools, by leveraging the help of 53,000 volunteers and 14,000 
community organizations so that:

        <bullet> Only 5 percent of all human resources are paid staff, 
        and
        <bullet> On average, each paid staff member serves nearly 300 
        students.

In addition, through its focus on management of resources, each $100 of 
public resources leverages $82 of private resources. \22\
    7. The No Child Left Behind Act currently fails to strategically 
address the importance of schools and districts leveraging community-
based, integrated student services to improve student achievement and 
the success of schools.

    <bullet> ``The United States does not have a coherent youth policy 
to prevent at-risk youth from becoming disconnected and to help 
disconnected youth become productive members of society. Instead we 
have a patchwork of fragmented and often poorly funded programs at the 
Federal level that do not have common objectives or accountability 
measures. Nor do State and local areas typically have comprehensive 
youth policies.'' \23\
    <bullet> ``Although the Federal Government has expressed 
considerable interest and funded some discrete projects, its efforts 
have been limited. The movement toward school-linked services will not 
be successful, or even successfully evaluated, without a decision . . . 
to make a deeper commitment to . . . this approach.'' \24\

        ``Schools need to provide a wide range of . . . intensive 
        assistance strategies for struggling students in schools--
        [including] . . . counseling, mentoring, tutuoring, service 
        learning, . . . and more--and provide adult advocates in the 
        school who can help students find the support they need . . . 
        Schools also need to . . . enchance their coordination with 
        community-based institutions and government agencies.''

            --Bridgeland, et al., The Silent Epidemic: Perspectives of 
            High School Dropouts (2006)

           III. FEDERAL LAW SHOULD PROMOTE COMMUNITY-BASED, 
                      INTEGRATED STRATEGIES THAT:

    <bullet> Improve achievement of at-risk students;
    <bullet> Support schools in need; and
    <bullet> Leverafe significant non-federal resources.

    1. The effective and efficient delivery of community-based, 
integrated student services to at-risk students depends upon the 
existence of dedicated staff in schools who can identify and match 
student needs and community resources to meet those needs. Thus, 
Congress should provide competitive grant funding for community-based, 
nonprofit organizations to provide integrated, school-based services to 
at-risk students.
    Congress should provide funding to support competitive grants to 
community-based nonprofit organizations, which will (in collaboration 
with districts and schools) hire and support school-based outreach 
coordinators who will be responsible for identifying student needs and 
connecting available community resources to meet those needs. Funding 
should be available to support the efforts of title I districts that 
have identified high-poverty, low performing schools in need of 
significant community-based resources, which have also failed to make 
Adequate Yearly Progress. Funding should be targeted toward nonprofit 
organizations working with schools that have:

    <bullet> Leadership committed to establishing strong relationships 
with community organizations that can meet the needs of at-risk 
students;
    <bullet> The clear need for community support for at-risk students 
and their families;
    <bullet> The community capacity and willingness to support 
significant school improvement efforts; and
    <bullet> Data systems that will permit meaningful evaluation of 
student outcomes and relevant investments over time.

    This recommendation reflects current research and tracks the 
specific recommendation of one recent study recognizing that 
``districts and schools [should) . . . leverage their own limited 
resources by engaging community organizations'' and dedicating staff 
``who are responsible for making the necessary connections between 
community resources and student/parent needs.'' \25\
    2. The effective and efficient delivery of community-based, 
integrated student services should be a strategy that all schools are 
required to evaluate and, as appropriate, pursue, when they do not to 
meet State performance goals over time. Thus, Congress should expand 
the range of support for schools not making Adequate Yearly Progress 
(AYP).
    Schools that have failed to make AYP for 1 year and that are 
designated as ``in need of improvement'' should be required to, in 
their development of school improvement plans, include with specific 
goals and timetables:

    <bullet> A plan for identifying students in the greatest need of 
support, along with the kind of academic and non-academic support those 
students likely need;
    <bullet> A plan for identifying and coordinating community services 
that can provide support to identified students;
    <bullet> A set of strategies designed to leverage community 
resources to meet identified needs of low-performing students; and
    <bullet> Criteria upon which such efforts will be evaluated over 
time, inducting relevant student performance criteria.

    For schools designated as ``in need of improvement'' for two or 
more consecutive years, districts should be required to provide 
technical assistance to enhance their efforts to implement school 
improvement plans that will improve student achievement, which include 
a focus on matching community-based, integrated student services with 
identified student needs.
    All middle schools designated as ``in need of improvement'' for two 
consecutive years, and high schools that meet the same criteria that 
also have dropout rates exceeding 10 percent, should be required to 
develop individual student performance plans for students identified as 
significantly at risk of dropping out of school based on key factors 
(e.g., attendance, achievement, behavior, suspensions) in order to 
target access to an appropriate range of community-based, student 
support services.
    3. The delivery of community-based, integrated student services in 
schools should be guided by research- and evidence-based criteria that 
reflect the provision of systemic, replicable, cost-effective, and 
student-centric services. Thus, Congress should authorize funding for 
new national initiatives that establish and implement these criteria.
    Congress should authorize funding for new national initiatives--
administered by nonprofit organizations. These initiatives would 
combine research and evidence-based strategies, training, and technical 
assistance with certification and evaluation of efforts of community-
based organizations. These community-based organizations are dedicated 
to meeting student needs, improving student achievement, and mitigating 
the risk of dropping out of school. In particular, those funds should 
be targeted to ensure that community-based organizations providing 
support for at-risk students are as effective in their interventions as 
possible and that they are working in ways that are most cost-
effective.

        The ``most successful'' school-community arrangements have a 
        coordinator of community services ``serving as part of the 
        school's management team.''

            --Martin J. Blank, ``Community Schools Creating 
            Comprehensive Opportunities and Support for Children and 
            Families,'' Boston Children's Institute of the Home for 
            Little Wanderers. (2000)

        There needs to be a ``federal evaluation of [dropout 
        prevention] programs and the sharing of the most innovative and 
        successful programs that can be brought to scale.''

            --Bridgeland, et al., The Silent Epidemic: Perspectives of 
            High School Dropouts (2006)

                                ENDNOTES

    1. Appleseed Foundation, ``It Takes a Parent: Transforming 
Education in the Wake of the No Child Left Behind Act,'' (2006), 35.
    2. William E. Milliken, ``The Five Communities In Schools Basics'' 
 1992. The inter-relatedness of these strands is also central: ``We 
know . . . that high quality, organized (out-of-school-time) activities 
have the potential to support and promote youth development because 
they (a) situate youth in safe environments; (b) prevent youth from 
engaging in delinquent activities; (c) teach youth general and specific 
drills, beliefs and behaviors; and (d) provide opportunities for youth 
to develop relationships with peers and mentors.'' Harvard Family 
Research Project, ``Beyond the Classroom: Complementary Learning to 
Improve Achievement Outcomes,'' The Evaluation Exchange, XI (I), http:/
/www.gse.harvard.edu/hfrp/eval/issue29/theory.html,2. Common elements 
of successful dropout programs include ``trying to increase the holding 
power of the school by creating meaningful personal bonds'' and 
``connecting students to an attainable future.'' Olatokunbo S. Fashola 
and Robert E. Slavin, ``Effective Dropout Prevention and College 
Attendance Programs for Students Placed At-Risk,'' Journal of Education 
Research for Students Placed at Risk, 3(2), (1998), 159-183.
    3. Extrapolated from findings of Communities In Schools, 
``Connecting Kids With Community Resources,'' 2004-2005 Results From 
the Network report.
    4. Heather Weiss, ``From the Director's Desk,'' The Evaluation 
Exchange, 10 (1), (2005) http://www.gse.harvard.edu/hfrp/eval/issue29/
director.html,1.
    5. Rima Shore, ``Kids Count Indicator Brief Reducing the High 
School Dropout Rate,'' Annie E. Casey Foundation, (2005), http://
www.aecf.org/kidscount/indicator_briefs/dropout_rate.pdf, 2.
    6. Sam Dillon, Schools Slow in Closing Gap between Races (New York 
Times, Nov. 20, 2006) http://travel.nytimes.com/2006/11/20/education/
20gap.html?n=Top/Reference/Times%20Topics/People/D/Dillon,%20Sam.
    7. Paul E. Barton, ``Parsing the Achievement Gap: Baselines for 
Tracking Progress'' Policy Information Center; Education Testing 
Service, (2003) http://www.ets.org/Media/Research/pdf/PICPARSING.pdf, 
36.
    8. American Youth Policy Forum, ``Every Nine Seconds in America a 
Student Becomes a Dropout,'' Excerpted from Whatever it Takes: How 
Twelve Communities Are Reconnecting Out-of-School Youth (2006) http://
www.aypf.org/publications/EveryNineSeconds.pdf, 3.
    9. Ibid.
    10. Ibid.
    11. Fashola and Slavin, ``Effective Dropout Prevention . . .,'' 
supra.
    12. Richard E. Berman, ``The Future of Children, School Linked 
Services'' Center for the Future of Children and The David and Lucille 
Packard Foundation, 2(1), (1992), 8.
    13. U.S. General Accounting Office, ``School Dropouts Education 
Could Play a Stronger Role in Identifying and Disseminating Promising 
Prevention Strategies,'' Report to the Honorable Jim Gibbons, House of 
Representatives, (2002), http://www.gao.gov/new.items/d02240.pdf, 4-5.
    14. Martin Blank, ``Community Schools Creating Comprehensive 
Opportunities and Supports for Children and Families,'' Boston 
Children's Institute of the Home for Little Wanderers, http://
www.thehome.org/site/pdf/4C2Blankpap.pdf, 100.
    15. Harvard Family Research Project, ``Beyond the Classroom: 
Complementary Learning to Improve Achievement Outcomes,'' The 
Evaluation Exchange, XI (1), http://www.gse.harvard.edu/hfrp/eval/
issue29/theory.html,1.
    16. Blank, ``Community Schools Creating Comprehensive Opportunities 
and Supports for Children and Families,'' supra.
    17. Catherine Jordan, Evangelina Orozco, Amy Averett, ``Emerging 
Issues in School, Family & Community Connections,'' Southwest 
Educational Development Laboratory, (2001), http://www.sedl.org/
connections/resources/emergingissues.pdf, 43-44.
    18. Camilla A> Lehr, ``Increasing School Completion: Learning from 
Research-Based Practices that Work,'' Research to Practice Brief 3(3), 
(2004), http://eric.ed.gov/ERICDocs/data/ericdocs2/content_storage_01/
0000000b/80/2e/17/a8.pdf, 1.
    19. Martin Blank and Amy Berg, All Together Now: Sharing 
Responsibility for the Whole Child,'' Association for Supervision and 
Curriculum Development, (2006), 7-8.
    20. Atelia Melaville, Amy C. Berg, Martin J. Blank, ``Community-
Based Learning: Engaging Students for Success and Citizenship,'' 
Coalition for Community Schools, 11-12.
    21. Blank and Berg, ``All Together Now: Sharing Responsibility for 
the Whole Child,'' supra.
    22. Communities In Schools, ``Connecting Kids With Community 
Resources, supra.
    23. Jodie Levin-Epstein and Mark H. Greenberg, ``Leave No Youth 
Behind: Opportunities for Congress to Reach Disconnected Youth,'' 
Center for Law and Social Policy, (2003), 4.
    24. Berman, ``The Future of Children, School Linked Services,'' 
supra.
    25. Appleseed Foundation, ``It Takes a Parent: Transforming 
Education in the Wake of the No Child Left Behind Act,'' supra, 35.

    Senator Reed. Thank you very much, Mr. Cardinali and I am 
particularly pleased to recognize Kathy Patenaude because Kathy 
is a Rhode Islander and she is one who comes with a great 
expertise on a multiple of challenging and very valuable tasks 
in Rhode Island. She is a career teacher, a high school biology 
teacher. She has been director of multidisciplinary teaching 
laboratories at Brown University. She is a parent advocate, 
school committee leader, someone who has seen all these issues 
from many different perspectives and currently, she is 
President of the Rhode Island PTA. Welcome, Kathy.

 STATEMENT OF KATHY PATENAUDE, PRESIDENT, RHODE ISLAND PARENT 
          TEACHERS ASSOCIATION, COVENTRY, RHODE ISLAND

    Ms. Patenaude. Thank you very much. Good afternoon, 
Chairman Reed and members of the committee. I wish to thank the 
committee for giving me this opportunity to speak on behalf of 
the nearly 5,000 members of Rhode Island PTA and the 5.5 
million PTA members nationwide. I am glad to see Congress 
working so hard for our children.
    My name is Kathy Patenaude and I am the President of Rhode 
Island PTA. I have been a PTA member for more than 15 years and 
have served as a Local Unit President, as a Council President 
and as a Legislative Chair, Vice President for Leadership, 
President Elect and finally President for Rhode Island PTA.
    Most importantly, however, I am the mother of a 19-year-old 
daughter, Kasey, who attended school in the Coventry Public 
School District and is presently a sophomore at Providence 
College.
    As the President of Rhode Island PTA, I have first hand 
knowledge of the importance of parent involvement. Moving 
beyond the normal definition of involvement has been key in 
helping many of the schools across Rhode Island. Still, there 
is much work to do.
    So how exactly has the parental involvement piece of No 
Child Left Behind played out in Rhode Island? From the PTA's 
perspective, we have seen some successes and some failures. 
Certainly, more and more parents across Rhode Island are 
becoming advocates for their children's education. Most parents 
know whether or not their child's school is low, moderate or 
high performing or whether their child attends a failing 
school.
    The Rhode Island Information Resource Center, also known as 
PIRC, has led the charge in educating parents about school 
choice and supplemental services, however all schools, whether 
urban or suburban, struggle to engage parents as equal partners 
with teachers in schools in the education of their children.
    School Report Nights have low attendance rates, mainly 
because parents find them tedious and boring. Typically, 
parents are assaulted with PowerPoint presentations, with chart 
after chart comparing their school's performance as compared to 
the State's average. It is a rare parent that is excited to sit 
through one of these type of presentations. There has to be a 
better way to inform parents of the data without boring them in 
the process. Teachers and administrators need to be taught in 
their pre-service training, how to engage their parents and 
community stakeholders. It can not be theoretical. They need 
examples of best practice and tools to succeed and most 
importantly, they need to believe that parent input is a 
necessary good and not a necessary evil.
    Rhode Island PTA believes that parent engagement starts at 
the very beginning. Every child--not just a struggling child, 
needs a personal or individual learning plan and the parent or 
guardian needs to be part of this discussion. This personal 
learning plan needs to be updated yearly or at the very least, 
during the transition from elementary to middle to high school. 
This cannot be accomplished during the present structure of 
parent teacher conferences. The teacher, parent and child need 
to sit down together and develop this personal learning plan 
and this requires more than a typical 10-minute conference.
    This is the kind of communication that No Child Left Behind 
envisioned--ongoing, meaningful and two-way. Often times, 
parent engagement is high at the elementary level and then 
drops off at the middle and high school levels. We need to 
dispel the myth that our students do not want their parents 
involved in their schools once they leave the elementary level. 
Parents who are involved at the elementary level cannot be 
allowed to walk away because there is no role for them at the 
middle or high school level.
    These parents are the very folks that need to be trained to 
mentor other parents to be active advocates for their children. 
They need to be welcomed at middle and high school and not 
turned away with comments like, your children needs to cut the 
apron strings. They need to grow up, sink or swim. It's time 
for you to let go.
    Administrators need to change their opinion of why parent 
groups are necessary in their schools. Many times, active 
parenting groups are seen as fundraising arms for the building 
principal and are used to raise the extra they need to plug 
holes in their budget. This is not a good example of parent 
engagement.
    If parents do not come to school, then schools need to know 
where the parents are and go to them instead. They need to 
partner with community agencies and bring those agencies under 
their roof. Schools should be community centers and hubs of 
activity for parents and students, open 24/7. For example, why 
do we have school libraries separate from our town libraries? 
Why don't we share these resources and let parents borrow books 
or use computers at either site?
    Although e-mail communication has been a wonderful tool of 
communication between parents and teachers, many parents do not 
have access to computers at home. A digital divide is 
occurring. We need to partner with health care agencies, day 
care providers, fitness centers and safe-based organizations 
just to name a few.
    Our teachers and guidance counselors need flex schedules so 
they can be available at times when parents are at home from 
work and spending time with their children and there needs to 
be a designated person in the school district, someone who is 
responsible and accountable for the parental involvement piece. 
It has to be part of their job.
    Finally, parents cannot be treated as clients or patients 
that need to be fixed. The vast majority of parents want the 
best for their children. So do teachers. We believe that when 
this partnership between parents, teachers and children are 
successful, our children will succeed and be ready to face the 
challenges of the 21st century. Thank you for this opportunity 
to speak.
    [The prepared statement of Ms. Patenaude follows:]

                 Prepared Statement of Kathy Patenaude

    Mr. Chairman, I wish to thank the committee for giving me this 
opportunity to speak on behalf of the nearly 5,000 members of the Rhode 
Island State PTA and the 5.5 million PTA members nationwide. I am glad 
to see Congress working so hard for our children.
    My name is Kathy Patenaude and I am the President of the Rhode 
Island State PTA. I have been a PTA member for more than 15 years, and 
have served as a local unit president, as a council president, and as 
the legislative chair, vice president for leadership, president-elect 
and finally president for the Rhode Island PTA. Most importantly 
though, I am the mother of a 19-year-old daughter, Kasey, who attended 
school in the Coventry Public School District and is presently a 
sophomore at Providence College.
    In 2 years, the Rhode Island PTA will celebrate its 100th 
anniversary. We are a vibrant and growing organization; our membership 
increasing by nearly 7 percent this year alone. The national PTA 
organization is celebrating its 110th anniversary this year and stands 
today as the largest volunteer child advocacy organization in the 
United States with members in 25,000 local, council, district, and 
State PTAs in the 50 States, the District of Columbia, the U.S. Virgin 
Islands, and Department of Defense Dependents Schools overseas.
    Since its founding in 1897, PTA has reminded our country of its 
obligations to children and provided parents and families with a 
powerful voice to speak on behalf of every child. PTA strives to 
provide parents with the best tools to help their children succeed in 
school and in life. But PTA does not act alone. Rather, PTA works in 
cooperation with many national organizations, governmental agencies, 
and responsible corporate citizens on projects that benefit children 
and bring valuable resources to PTA members.
    For more than a century, PTA has been a strong, respected advocate 
for children's health, public education, and increased parent 
involvement in children's lives. Through consistent hard work, 
sometimes after years of perseverance, our voices have been heard. 
Ideas that grew out of local PTA meetings are now accepted as national 
norms: kindergarten classes, child labor laws, a public health service, 
hot lunch programs, a juvenile justice system, and mandatory 
immunizations. In addition, PTA provides practical resources and 
programs to assist parents and other volunteers in their advocacy 
efforts. Those resources and programs include Reflections arts 
recognition, the National Standards for Parent and Family Involvement 
Programs, Parent Involvement Schools of Excellence Certification, 
leadership and advocacy training, resources on children's health and 
safety, and much more.
    Mr. Chairman, numerous studies have documented that regardless of 
the economic, ethnic, or cultural background of the family, parent 
involvement in a child's education is a major factor in determining 
success in school. Successful parental involvement strategies vary from 
region to region, school-to-school, parent-to-parent. However, it is 
important that Congress find ways to help provide parents more 
opportunities to get involved. As you begin work on the upcoming 
reauthorization of the No Child Left Behind Act, I ask that you pay 
special attention to the role our local communities have in trying to 
improve the academic achievement of all students.
    As the President of the Rhode Island PTA I have first hand 
knowledge of the importance of parent involvement. Moving beyond the 
normal definition of involvement has been key to helping many of the 
schools across Rhode Island. Still, there is much work left to do.
    As parents work longer hours they are often unable to commit the 
time to joining important organizations like the PTA. Priorities have 
shifted and it is harder now than ever for many families to provide a 
roof over their children's head much less volunteer in their classroom, 
read to them every night and check their homework. Through all of this 
however, the PTA and the many other parent organizations, continue to 
bring parents together--forming a network of help and assistance, 
empowering the community, and providing assistance to children and 
their families.
    Improving parent involvement begins with the teacher. Training 
educators in how to not just bring the parent into the school but also 
helping them feel welcome in the school is very important. Most 
teachers already understand the importance of parent involvement. 
However, with such limited time in the day, and so many parents wanting 
their time, teachers hardly have the chance to go into the depth needed 
for a true, constructive discussion. The advent of e-mail has been very 
helpful in broadening the communication between parent and teacher; But 
e-mail needs to supplement not take the place of a face to face 
conversation.
    It is time for schools and their administration to start to think 
differently. There are many ways in which to get families involved and 
specifically engage parents in their child's school work. Training 
teachers to take full advantage of every note they send home with the 
child, every parent-teacher conference, and every community-based 
activity within the school to promote parent involvement must be placed 
higher on the agenda. Teachers can be stewards of parent involvement. 
Improving the academic success of the child is a shared goal of both 
parents and teachers. It is time for them to be an effective team so 
their goals can become reality.
    Another barrier that I find exists in Rhode Island, especially in 
the urban areas, is a lack of discussion with parents about the true 
academic future of their child. There seems to be little opportunity 
for parents and teachers to discuss the role that education plays in 
their child's life. If the parent-teacher partnership can, at an early 
age, impress upon the child why their education is so important, the 
student will be encouraged to stay in school. This will also help more 
parents to stay involved through the academic tenure of their child. 
The relationship of parent involvement certainly evolves as the child 
gets older. However the amount of involvement should never dissipate. 
By identifying academic goals, parent and child will have a better 
chance at becoming more actively engaged in the student's academic 
success.
    As President of the Rhode Island PTA, I have the responsibility of 
coordinating with many other groups in order to help our members find 
the services they need. One group of great importance to the many urban 
areas in my State is Rhode Island's Parental Information and Resource 
Center or PIRC. They have been effective in areas that have even been 
difficult for PTA to reach. I hope this committee reauthorizes the PIRC 
program and provides additional resources to meet their growing need. 
PIRCs are critically important vehicles in promoting and encouraging 
parent involvement. The following are just a few of the initiatives in 
which the Rhode Island PIRC has been involved:

    <bullet> In Providence, the PIRC has partnered with the Providence 
School Department's Parent Engagement Office in designing and co-
presenting parent engagement workshops to approximately 2000 Providence 
teachers.
    <bullet> In Central Falls, the PIRC trains the Home-School Liaisons 
who, in turn, return to their schools with new skills and information 
to share with their parents and families.
    <bullet> In Bristol/Warren, the PIRC led a team of educators and 
parents in developing Home-School Compact and school level parent 
involvement policies for title I schools.
    <bullet> In Pawtucket the PIRC presents parent involvement 
workshops to teachers at Jenks Junior High and conducted a Family 
Friendly Walk-Through. These walk-throughs help schools to recognize 
and consider improving the friendliness of their schools so that 
parents and families feel more welcome and more likely to go to school 
events and actively engage in their child's education. The Family 
Friendly Walk-Through is a good starting place for schools to begin 
improving and expanding their parent involvement practices.
    <bullet> The Rhode Island PIRC staff contributed to a standards-
based calendar for all children entering kindergarten in several 
districts including Providence, Pawtucket, Warwick and Cranston. The 
calendar is for parents and includes activities for families to do 
together to improve children's readiness for entering kindergarten. 
This project was completed with a State library group and Childspan.
    <bullet> They have widely distributed the U.S. Education 
Department's ``Tool Kits for Hispanic Families'' which includes 
information regarding No Child Left Behind.
    <bullet> The Five Question Project. The Rhode Island PIRC helped 
create and disseminate five Question posters listing the five top 
questions to ask your child's teacher. These posters have been 
distributed to many schools around the State and it has become a 
district initiative in East Providence, Woonsocket, Central Falls, 
Providence and some of Pawtucket.

    Mr. Chairmen, as you can see Parental Information and Resource 
Centers can have a major influence on promoting and initiating parent 
involvement in those areas that need it most. The PTA is proud to be a 
partner with the Rhode Island PIRC. As their role becomes more defined, 
I hope to help provide more assistance to the PIRC in promoting 
standards for family involvement and helping parents find the services 
they need throughout my State.
    And finally Mr. Chairman, I would like to touch on the initiatives 
put forth by the national PTA organization to improve the parent 
involvement provisions within No Child Left Behind. While Congress 
cannot mandate parental engagement in every school, the government can 
help to provide parents multiple opportunities to be an active 
participant in their child's education. PTA's recommendations for the 
ESEA-NCLB reauthorization are built on four core principles:

    (1) Better data through a more understandable delivery system

    <bullet> The information from the accountability systems should be 
geared towards informing parents. The parents have the primary decision 
making responsibility for their child's education. If No Child Left 
Behind was supposed to provide parents with more options, how can they 
make the correct choice for their child's education if they are not 
armed with the proper information?

    (2) More accountability to parents

    <bullet> Each State needs to hold schools accountable for 
implementing their Parental Involvement plans. Mechanisms need to be 
put in place to help a school found to be ``In Need of Improvement'' in 
the area of parent involvement, to keep parents informed about their 
options, and to hold the district accountable to remediation plans for 
school improvement.
    <bullet> Parents must be better informed of what is going on in 
their child's school. Whether its being an integral part of a schools 
parental involvement plan or making key decisions on how to improve the 
school, parents need to be at the table when these decisions are being 
made.

    (3) Better resources to help teachers and parents

    <bullet> Parental Information and Resource Centers and other 
existing State and local resources with expertise in parent engagement 
and community outreach should be better utilized as part of the 
solution when there is a need for school improvement in the area of 
parental involvement. These resources can not only disperse information 
and materials to parents but work effectively with schools that have 
not made Adequate Yearly Progress.
    <bullet> Teachers need better preparation on how to engage and 
develop positive partnerships with parents to support active parent 
participation in their child's education through better preparation 
teachers can be stewards of parental involvement and support student 
achievement at home and school.

    (4) Community Support

    <bullet> Schools need to be an active, essential part of a 
community again. Partnerships between residents, businesses, and 
schools in the community must become involved and part of the solutions 
for our schools and our children. Each segment of the community served 
by a school must have a stake in every child's education and the new 
law must create incentives for this to happen.

    Mr. Chairmen, members of the committee, I thank you for this chance 
to speak on behalf of the parents and children of Rhode Island and PTAs 
across the Nation. I believe in your efforts to improve the law to 
close the achievement gap, provide a better education for every child 
and support our children to be more competitive in a worldwide market 
place. People in every community across the country are trying to 
improve parent involvement. If this committee can see that by giving 
these partnerships more resources and more flexibility to provide 
innovative solutions, our children's academic achievement will rise. 
Thank you again for this opportunity. I look forward to further 
discussions on this important issue.

    Senator Reed. Well, thank you very much, Kathy. Now I'd 
like to introduce our final witness today and that's Wendy 
Puriefoy. Ms. Puriefoy has been the President of PEN since it 
was founded in 1991 and PEN is the largest network of 
community-based school reform organizations in the country, 
reaching 1,220 districts and 18,000 schools. Prior to working 
at PEN, she was Executive Vice President of the Boston 
Foundation. Thank you very much and welcome.

   STATEMENT OF WENDY PURIEFOY, PRESIDENT, PUBLIC EDUCATION 
                    NETWORK, WASHINGTON, DC.

    Ms. Puriefoy. Thank you. Mr. Chairman, distinguished 
members of the HELP Committee and my esteemed colleagues on the 
testifying panel, I am pleased and honored to offer Public 
Education Network's testimony on the reauthorization of No 
Child Left Behind.
    My name is Wendy Puriefoy. I am President of Public 
Education Network, a national organization of 80 local 
education funds that reaches over 11 million children in 16,000 
schools, across 34 States, the District of Columbia and Puerto 
Rico.
    The focus of our work is on the academic success of poor 
children in the public schools. Several Network members operate 
in the States of the Senators represented on the HELP Committee 
and I have included in my written testimony, the member list.
    I commend this committee for taking testimony on this 
important and often neglected aspect of providing excellent 
public schools for America--parent engagement, community 
engagement and public engagement. They are not all the same 
things.
    We all know by now that an isolated school is more likely 
to be a failing school. I also want the record to note that I 
commend Senator Kennedy for his early work and insights about 
the potential of NCLB.
    Quality public schools and public engagement are at the 
heart of PEN's mission. PEN's member local education funds are 
themselves an example of a remarkably effective public 
engagement strategy that is first grounded in knowledge of good 
practice and second, in engaging the active and strategic 
support of community and key stakeholders within and outside of 
schools.
    I also note for the record that new visions for public 
schools in New York State, New York City is working closely 
with the Department of Education there to launch small high 
schools, which increase the graduation rate of many poor and 
disadvantaged youngsters from school.
    So the Network members in their communities are motivated 
to act to achieve the end result, which is a system of 
effective public schools providing a quality public education 
for every child. Knowledge of effective school reform practices 
and action must be joined for effective public engagement and 
for systemic reform to occur.
    The Network and its members have been hard at work in 
helping to implement No Child Left Behind. We have written and 
distributed a guide on the law and its provisions for community 
involvement to 40,000 people. We've catalogued our local 
education fund experiences with districts. We've held 18 public 
hearings for 2 years across nine States with our LES members, 
the PTA, the YWCA and others and in fact, our Houston member 
held a hearing last evening in which 250 people attended and I 
attached for the committee the recommendations that came out of 
that hearing.
    PEN has also conducted three public opinion polls with 
Education Week and launched an online survey that reached over 
30,000 people. We've been working to help implement this law 
and our recommendations are based upon the public engagement 
efforts outlined above.
    Our first recommendation is to improve competent teaching 
policies to better support teachers and assess their 
effectiveness. Our second is that schools need a student-
focused, comprehensive accountability system that rewards 
progress and recognizes continuous improvement. We need to 
improve the use of school and district data and analysis to 
lead to more effective teaching and learning practices.
    And on this point of data, many parents and members of the 
community told us at our hearings that we held across the 
country that they were not receiving enough information about 
No Child Left Behind. They went to the school and they would 
get one set of information. They'd go to the State and get 
another set of information but they couldn't get a straight 
story.
    We want to expand the opportunity for shared accountability 
by including the community as partners and we want to see the 
parental involvement provisions strengthened and many have 
spoken about that today.
    I have attached to our testimony, five pages of PEN's 
detailed recommendations and I would ask that the committee 
consider those recommendations during your reauthorization 
process.
    But I would like to highlight the following examples for 
emphasis at this time. One is the PACE bill. It's an important 
start in recognizing how important community partnerships are--
that is, those groups who are working outside of schools to 
help ensure academic success inside of schools and also 
providing students a place where they feel some sense of 
competency.
    The effectiveness of the Parent Information Resource 
Centers are critical to the provision of useful technical 
assistance to school districts and accurate information for the 
public.
    The public is an important factor in this, since less 
than--about 75 percent of the American public don't have school 
age children in school. We have got to find ways to draw the 
broad American public into providing quality education.
    The parental provisions in section 1118 must be enforced 
and strengthened. Through PEN's members, our surveys and public 
hearings, we know that the schools are not taking the 
provisions seriously enough and we thank you, Senator Reed, for 
your support in this area.
    The American public--you know, often the general public is 
deemed to be ill equipped to address the sophisticated matters 
of schooling. Many of us say, what does the public know? Well, 
in fact, many of the things that we heard from the public in 
our public hearings are corroborated by research and education 
advocacy communities.
    Public education cannot exist as a valued public 
institution and quality public education will not be provided 
to all children in America without the knowledgeable, vigilant 
and active support of the American people. For many Americans, 
the No Child Left Behind Act provides the framework to address 
issues of excellence, the opportunity to hold their schools 
accountable and their public officials accountable and the 
opportunity to align and identify more resources to go to those 
proven academic and nonacademic strategies that make the 
critical difference in students' learning careers.
    Significant changes are needed. We look forward to the work 
of the committee. Thank you for this opportunity to testify.
    [The prepared statement of Ms. Puriefoy follow:]

                  Prepared Statement of Wendy Puriefoy

    Mr. Chairman and members of the Senate Health, Education, Labor, 
and Pensions Committee, I am Wendy Puriefoy, President of Public 
Education Network (PEN), a national constituency of 80 local education 
funds (LEFs) in 34 States, the District of Columbia, and Puerto Rico. 
Local Education Funds work to build knowledgeable public demand and 
mobilize resources for quality public education. PEN is present in 
nearly 1,600 school districts that reach more than 11 million children 
(approximately 22 percent of the Nation's public school population). 
PEN believes every child in America has the right to a quality public 
education. This is especially true for children from low-income 
families. Many PEN members are located in States represented by members 
of this committee. Senator Kennedy knows about the excellent teacher 
professional development work of the Boston Plan for Excellence, along 
with the Mary Lyons Foundation in Shelburne Falls, and the Lynn 
Business/Education Foundation in Lynn. These funds represent the 
education reforms of both urban and rural low-income school districts.
    Other LEFs in committee member districts are:

    <bullet> New York: New Visions for Public Schools, New York, N.Y.; 
Good Schools for All, Buffalo, N.Y.
    <bullet> Maryland: Delmarva Education Foundation, Inc., Salisbury, 
Md.; Fund for Educational Excellence, Baltimore, Md.
    <bullet> Washington: Alliance for Education, Seattle, Wash.
    <bullet> Ohio: Center for Leadership in Education, Elyria, Ohio; 
KnowledgeWorks Foundation, Cincinnati, Ohio; Partnership for Education 
in Ashtabula County, Ashtabula, Ohio.
    <bullet> Tennessee: HC*EXCELL, Morristown, Tenn.; Partners in 
Public Education, Memphis, Tenn.; Public Education Foundation, 
Chattanooga, Tenn.
    <bullet> Georgia: Great Schools Atlanta, Atlanta, Ga.
    <bullet> Arkansas: El Dorado Education Fund, El Dorado, Ark.
    <bullet> Connecticut: Bridgeport Public Education Fund, Bridgeport, 
Conn.; Hartford Education Foundation, Hartford, Conn.; New Haven 
Network for Public Education, New Haven, Conn.; Norwalk Education 
Foundation, Norwalk, Conn.; Stamford Public Education Foundation, 
Stamford, Conn.

    And thank you, Senator Reed. for keeping parental involvement and 
community engagement issues alive in title I, which is so important to 
PEN's members. Our Rhode Island PEN member, the Education Partnership 
in Providence, is working on issues of teacher and teaching quality.
    The focus of the committee's hearing today is on parent involvement 
and public engagement. The committee has requested that PEN join our 
other partnership witnesses this afternoon in addressing this topic as 
it relates to reauthorizing the No Child Left Behind Act (NCLB). Our 
local education funds thank you for this opportunity to showcase their 
work. As our other witnesses will validate today, there are many 
leaders at the local level, whether they be PTA members, the 50-member 
National Coalition for Parent Involvement in Education, Communities in 
Schools, the 150 organizations that belong to the Coalition of 
Community Schools, faith-based organizations, or our own local 
education funds, who are the unrecognized heroes that daily engage 
school districts, parents and communities in pursuit of quality public 
education for every child.
    PEN specifically brings the experience of our local education funds 
to this hearing because they represent one of the most structured, 
strategic, and sustaining strategies for public engagement in service 
of quality public education. Our LEF members work in partnership with 
their school districts to create quality public schools as well as with 
their communities to build the knowledge of what good schools can do 
for the quality of communities.
    A sample of their programs include: upgrading science and 
mathematics instruction; supporting high quality teacher professional 
development that leads to measurable results; creating small high 
schools that enable students to graduate ready for work, college, and 
citizenship; and, providing scholarships for students to go on to 
college. Annually, they raise $200 million from foundations, 
corporations and individuals in their community's reform and improve 
their local public schools. Local education funds also have been 
successful in engaging their communities to pass bond measures totaling 
nearly $20 billion.
    Mr. Chairman, I want to emphasize that local education funds across 
America represent two key components of successful public engagement: 
knowledge of what good schools should be and capacity--building with 
districts and communities to commit their citizens to excellent schools 
for America's children.
    PEN's positions on NCLB and our recommendations emanate from the 
collective experience and knowledge of our local education funds and 
their constituents, within both school districts and communities. For 
our members, parent involvement and community engagement are not ends 
in themselves. Rather, public engagement is in service to achieve the 
larger goal of ensuring that every child has a qualified teacher, 
receives high quality instruction, and is provided the range of 
academic and social supports needed to complete high school ready for 
work and college. These goals constitute the ``for what'' of public 
engagement for PEN's members.
    The following five areas surfaced through these public engagement 
efforts:

    1. Improve competent teaching policies to better support teachers 
and assess their effectiveness;
    2. Schools need a student-focused, comprehensive accountability 
system that rewards progress and encourages continuous improvement; 
and,
    3. Improve the use of school and district data and analysis to lead 
to more effective teaching and learning.

    Our members at PEN believe that the following two areas are 
necessary levers for achieving numbers 1, 2, and 3:

    4. Expand the opportunity for shared accountability by including 
the community as partners; and
    5. Strengthen the parental involvement provisions.

    When NCLB was passed in 2002, PEN wrote and distributed over 40,000 
copies of Using NCLB to Improve Student Achievement: An Action Guide 
for Community and Parent Leaders. In addition, in collaboration with 
NCPIE, PEN developed a special comprehensive online set of parent and 
community tools in an easy-to-print format comprised of over 22 action 
briefs, tips on how parents and community could be involved, 
information about the law and regulations, and a toolbox of resources.
    During the past 3 years, PEN solicited feedback about the act's 
impact from its members, their communities, as well as through public 
hearings specifically aimed at parents, students, community activists 
and local businesses. Our work included:

    <bullet> Two (2) surveys of all LEF directors across the Network;
    <bullet> In-depth interviews with 12 LEF directors;
    <bullet> Six (6) community focus groups;
    <bullet> A town meeting at PEN's 2006 annual conference that sought 
input from LEFs;
    <bullet> 18 public hearings nationwide with local education fund 
partners, as well as other partners such as the YMCA, PTA chapters, and 
the Intercultural Development Research Association; and
    <bullet> Two (2) online web-based surveys that received input from 
over 30,000 citizens and three (3) national polls that asked questions 
about NCLB.

    And most recently, a town hall meeting hosted by our member, 
Houston A+, was held last evening. I give you the report of that 
hearing today.
    Based on the information we received from those sources, I would 
like to address my remarks related to the following:

    1. Background of community and parental involvement in past title I 
reauthorizations and laying the context for our recommendations;
    2. Assumptions and premises of parental involvement and community 
engagement;
    3. Review of the NCLB national hearings that PEN has been holding 
since 2005, and a summary of support and concerns of community members 
around the country;
    4. Identification of essential elements in building a community 
infrastructure and ownership for change, and developing needed 
leadership and capacity at all levels of the title I program; and 
lastly;
    5. Recommendations from PEN's members for building on the current 
NCLB Act.

  1. BACKGROUND OF COMMUNITY AND PARENTAL INVOLVEMENT IN PAST TITLE I 
   REAUTHORIZATIONS AND LAYING THE CONTEXT FOR PEN'S RECOMMENDATIONS

    PEN commends Senator Kennedy and Senator Enzi for holding this 
hearing. During the various reauthorizations of the Elementary and 
Secondary Education Act over the years, it has been rare that a 
committee hearing has been entirely devoted to the issues of parents 
and the community. I am reminded, Senator Kennedy, that it was your 
brother, Senator Robert F. Kennedy, who in a Senate Education Committee 
hearing in the debates of the first ESEA passed in 1965, voiced the 
importance of low-income parents and the community in holding schools 
accountable. Although he faced some stiff opposition, he persisted in 
passing a requirement that parents should be involved in the 
development and allocation of funds in title I programs. Despite his 
belief in the goals of title I, he raised questions about who would 
hold public schools accountable for change, how that accountability 
would be framed, and what mechanisms would ensure that, given the 
opportunity, low-income parents and communities would have the same 
status and power as more affluent parents to demand a quality public 
education for their children. Congress and the then U.S. Office of 
Education agreed and added the parental involvement requirements in 
both law and in regulations. As a result, a national Title One Parents 
organization was instituted, TOPACs (Title One Parents Advisory 
Committees) were instituted at the local level, and parents were not 
only trained in parenting skills, but also in advocacy and 
organizational skills.
    In 1978, as part of the Educational Amendments of 1978, it was 
through your leadership that you understood that low-income parents and 
families needed help, and that as the number of school-aged children 
began to decline, the number of adults who had parents in public 
schools also declined. As well, the family unit began to change and 
communities needed to share in this effort of school accountability. 
That year, you proposed language, and Congress added provisions for 
community education and involvement to title I. The Congress understood 
that the civic and service sector of each community was essential in 
partnering with the school if our children were to be successful.
    But starting with deregulation of title I (Chapter I as it was then 
renamed) in the early 1980s, parental involvement became a 
``permissible'' activity. It was no longer a required element of the 
law and the community education provisions were almost entirely 
stricken from the law. As a result, parent involvement and community 
engagement decreased considerably, and many schools chose to bar 
parents and community from title I decisionmaking, participation and 
partnership. When the Congress relented on title I requirements, so did 
State education departments and local school districts. While there 
were exemplary school districts and schools that chose to continue 
parental involvement programs, the decade of the 1980s saw most 
districts pay lip service to parental involvement, or reduce parental 
involvement to a set of fundraising tasks at the expense of equal 
participation and partnership.
    Even the 1983 Nation at Risk report paid scant attention to parents 
or the role of the community in decisionmaking or sharing with schools 
the responsibility for accountability of performance and results. By 
default, the professional school community, education reformers, many 
policymakers, and special interest groups (with the exception of 
special education parents) relegated parents and community to the 
school public relations department, rather than making them equal 
partners in two major areas of public education: (1) advocates and 
supporters of quality public schools for all children; and, (2) active 
participants in holding themselves, their policymakers, and schools 
accountable for performance.
    Interestingly enough, it was in 1983 that the first local education 
funds were established with funding from the Ford Foundation. The 
foundation recognized that the challenges defined by the Nation at Risk 
report could not be effectively addressed, especially in low-income 
urban and rural communities, unless there were intermediary entities, 
independent of the school district and reflective of the broader 
community, that brought knowledge and pressure for change both within 
the school district and in the community at large. Since 1983, LEFs 
have grown in numbers. Through major initiatives funded by the Nation's 
largest philanthropies--The Ford, Walter and Lenore Annenberg, W.K. 
Kellogg, The Rockefeller, William and Flora Hewlett, Bill and Melinda 
Gates foundations, the Wallace Funds, and the Carnegie Corporation--
these groups have evolved into a necessary player in their communites' 
civic infrastructure. They provide smart and critical knowledge about 
reform strategies, as well as partnerships to improve student 
achievement, while simultaneously building the case and the momentum 
for reform by engaging people within and outside of schools.
    With the passage of the Improving America's School Act and the No 
Child Left Behind Act, parental involvement provisions such as the NCLB 
section 1118, the parent compacts, and roles for parents at the State 
and local school district levels have been added. However, these 
sections are not enforceable, and as a result, many districts do not 
implement these sections well, if they do so at all. Many districts may 
inform parents about the NCLB law and regulations, but are often 
deficient in implementing the intent of parental involvement 
effectively. The U.S. Department of Education reports that 10 of the 18 
States monitored last year cited deficiencies in parental involvement 
implementations. Those deficiencies included: failing to include all of 
the elements of the parental involvement polices; schools using parent 
involvement polices without tailoring them to the needs of student and 
families; and, not having policies comply with section 1118 at all. The 
department found that in too many States, school districts were using 
standard templates to communicate with parents without taking advantage 
of the parent engagement opportunities presented by the law.
    Another area of deficiency often cited by the department's 
monitoring visits is a lack of either State or school district 
evaluation of their parental involvement programs. And when it comes to 
partnering with either individual community members or community 
organizations, school outreach drops off dramatically. While parents 
are mentioned in the law over 200 times, very little role is offered 
for community organizations to share in providing support to low 
performing schools, advocating for change, or holding schools 
accountable. Many districts say they do not have the time or resources 
to implement a fully developed parent or community engagement program. 
In reality, this lack of oversight predates NCLB and has been a chronic 
deficiency of the law since the days of deregulation. All of these 
factors are reasons why the Parent Information Resource Centers (PIRCs) 
are essential in providing States and local school districts with the 
assistance they need in developing effective parent involvement 
programs. They are part of the State and local capacity needs that I 
will address later in this testimony, but they are well thought-out 
centers that help align the goals of NCLB with title I districts that 
need the knowledge and benefit of parental involvement expertise.

   2. ASSUMPTIONS AND PREMISES OF PARENTAL INVOLVEMENT AND COMMUNITY 
                               ENGAGEMENT

    <bullet> Federal policy can and does make a difference in the 
execution of quality public education policy, applied to the parental 
involvement and community education and partnership provisions, with 
enforcement. There are still too many schools that shut out the 
community and parents in meaningful decisionmaking.
    <bullet> Public schools that are responsive to the needs of parents 
and families, as well as students, can play a significant role in 
raising achievement. Parents need to be recruited as active partners in 
the educational process, but also in the process of ``learning 
together'' and supporting the learning changes necessary to develop a 
21st century democracy as well as a 21st century workforce.
    <bullet> Parental involvement alone is inadequate to improve the 
most difficult schools. Community members must also be involved in and 
responsible for providing the resources and funding support services, 
parental assistance, political pressure and accountability.
    <bullet> Quality and valid data play a critical part in empowering 
parents and the community in pressuring for improvement and change. But 
the information must be transparent, easy to understand, and most 
importantly, useful for purposes of school improvement, rather than to 
apply punitive consequences to schools. Senator Robert Kennedy raised 
this issue in 1965 when he commented on the balance between data and 
engagement.
    <bullet> Providing data does not assure that the data will be used, 
or that the data will be interpreted accurately to make sound decisions 
about school improvement. But disaggregating data is essential in 
assuring that groups of low performing students will not fall off of 
the public radar screen of accountability.
    <bullet> The re-authorization must recognize the role of community 
and community education in assuming responsibility for shared 
accountability and decisionmaking. Community educators, service 
agencies, local education funds, parent organizations and other groups 
need to coordinate efforts with the schools. They must be able to work 
across Federal and State funding streams to converge in providing 
services to the neediest of our children.
    <bullet> Education based on high achieving results for all students 
cannot be accomplished by the school or the community alone. There 
appears to be a growing understanding on the part of both the community 
and schools that they need each other to succeed. Still, in many cases, 
community organizations and school districts do not know how to reach 
each other. Both need new models of practice, staffing, funding and 
behavior to be able to more effectively integrate their work to provide 
a seamless web of support for students.
    <bullet> The Federal Government, State education departments and 
local school districts currently do not have the capacity to implement 
a comprehensive program of parent and community involvement. Unless 
engagement becomes a priority in the various levels of government, 
staff members are allocated to serve as the advocates or point people 
for engagement programs. As such, the community and parents are NOT 
seen as equal partners in the education decisionmaking process. If 
involvement is not seen as vital to providing quality schools as it is 
in providing a means of democratic accountability, the goals of NCLB 
will not be met.
    <bullet> The ``inside'' or the school district, and the 
``outside,'' the community needs each other to succeed. Each serves 
different roles, and to the extent that these roles are inextricably 
related and integrated is to the extent that we no longer will have to 
use the terms ``outside'' and ``inside.''

          3. REVIEW OF THE PUBLIC INFORMATION PEN HAS GATHERED

    One of the benefits of NCLB was to provide the opportunity to bring 
communities together to talk about critical issues of education reform 
via town meetings, hearings, online surveys, public polls, as well as 
through the opportunities provided by our own constituency of LEFs. In 
the course of these dialogues, issues such as school quality, equity, 
funding, teacher quality, assessments arose. The perspectives of 
average citizens--which are not usually sought in the policymaking 
process--are critically important for policymakers to understand as 
they consider amendments to the law. We promised the constituencies 
that we would compile their recommendations and concerns and bring them 
to Congress and the White House.
    We have published reports on our findings for the past 2 years. 
Just last evening, one of our members, Houston A+, held a town meeting 
hearing. We promised the Houston participants that we would directly 
submit those recommendations to the HELP committee members. So Mr. 
Chairman, on behalf of Houston A+, I am attaching their recommendations 
to this testimony.
    But in the composite, here are the results which offer a glimpse 
beyond the schoolhouse doors into some unintended consequences of the 
law and its implementation.
    In particular, we heard the following:

    <bullet> Citizens support the goals of the law, including increased 
accountability, but believe the existing NCLB accountability system is 
too thin. A single test shouldn't be used to judge school performance.
    <bullet> We must (a) broaden accountability measures used to 
determine school performance, to include other indicators such as 
parent and community involvement, school funding, class size, services 
offered by the school, and, if the school is low performing, the 
measures that the school has taken to make improvement; and (b) explain 
to the public the meaning of the assessment results. Simply publishing 
a report of scores in a newspaper or Web site without explanation or 
context leads to frustration and skepticism.
    <bullet> Participants liked the policy of disaggregating data, but 
many said they did not receive the data, or receive the data in a 
language or a format that they could understand.
    <bullet> Many parents were not aware of section 1118, or said that 
they were involved in the development of the district or school 
parental involvement policies. Generally, most of the parents said that 
if they knew about section 1118, they had no means of enforcement in 
case the school did not implement the provisions.
    <bullet> Participants told us they believe that while primary 
responsibility for student achievement lies with schools, schools can 
not do the job alone. Support should be provided for closer 
relationships between schools and helping institutions in a community, 
and accountability should be expanded across the community so students 
and families get the supports they need.
    <bullet> The label of ``low performing school'' has unintended 
consequences. It is internalized by students, who feel their diploma is 
``worthless'' if it comes from such a school. In addition, instead of 
causing a community to rally around the school to address its 
deficiencies, such labeling leads to the abandonment of schools by 
teachers, students, and community members, just when the school is most 
needy. Districts should provide an explanation to the public of what 
various labels mean to the district and to the students, parents, and 
public in that community.
    <bullet> Information required by NCLB is not reaching parents. This 
includes both information that parents need to make decisions about 
their children's education, such as the availability of SES services. 
This often arrives too late to be useful, is full of jargon, and is not 
translated into families' home languages.
    <bullet> Schools are held accountable on the backs of students. 
Students feel enormous pressure that is passed along by teachers and 
administrators who are worried about school performance. This pressure 
causes many to say they have become ill. Some have even dropped out of 
school.
    <bullet> The determination of ``highly qualified'' teacher should 
be made on the basis of more than just paper certification. We heard 
over and over again that this is an inadequate proxy, and does not take 
into account the ability of a teacher to truly connect with and reach 
students so that they feel cared for, nurtured and motivated.
    <bullet> Academic supports under the law are inadequate and offer 
false promises. First of all, parents want the option of tutoring 
services before the option to transfer to another school, and most do 
not want the transfer at all. They want their own schools to work, and 
they want to be involved in the plans to improve their current schools. 
SES services often are not provided as advertised. Services should be 
evaluated and service providers should be held accountable just as 
schools are held accountable
    <bullet> Several of the issues raised concern the law's 
implementation. These concerns may not require legislative changes, but 
they do require the Federal Government to help increase capacity of 
States and districts, which are simply not set up to carry out many of 
the data collecting, dissemination, parental involvement provisions, 
along with other responsibilities under the law.
    <bullet> Finally, the issue of sufficient resources must be 
addressed. The requirements of the law add additional fiscal burdens to 
States and districts that they should fulfill. However, many do not 
always have the resources necessary for such fulfillment.

    4. IDENTIFICATION OF ESSENTIAL ELEMENTS IN BUILDING A COMMUNITY 
    INFRASTRUCTURE AND OWNERSHIP FOR CHANGE, AND DEVELOPING NEEDED 
     LEADERSHIP AND CAPACITY AT ALL LEVELS OF THE TITLE I PROGRAM.

    In 2003, Public Education Network commissioned the independent 
research firm Research for Action (RFA) to conduct a study titled 
``Crafting a Civic Stage for Public Education Reform: Understanding the 
Work and Accomplishments of Local Education Funds,'' on the roles and 
accomplishments of LEFs. They also were asked to capture what generic 
elements are essential, even in those communities that do not have 
LEFs, in bridging community development with educational reform. As 
noted by civic and community organizers, it is much easier to build 
momentum for development efforts that focus on physical attributes--
housing, downtown revitalization, recreational facilities that draw 
tourists--than it is to build momentum for education reform and change. 
The study also concludes that it is much easier for both the community 
and the school to demonstrate success if an effective LEF is present. 
To be sure, the role of the local education fund is two-fold (using the 
means of public engagement): (1) to build the demand for quality public 
schools by organizing the community to hold the major stakeholders, 
such as schools, school boards, policymakers, reformers, and the public 
accountable for quality public schools, and (2) to serve as the 
coordinator in providing or supporting the resources and funding 
necessary to assure that the school is successful. They create change 
through brokerage and relationship building, adding value to education 
reform and change. In short, they are vehicles for action.
    The committee asked for strategies for effective community 
involvement. Instead of citing specific strategies, let me deviate a 
bit, and on the basis of the results from the RFA study cited above, 
let me review those components essential to community engagement and 
partnership. This is true for an LEF or any other intermediary 
organization. LEFs must possess the ability and expertise to do the 
following:

    <bullet> Be recognized by the community and be able to define major 
issues and challenges that meet the needs of the public. As a result, 
there is no one model for engagement. For instance, regional LEFs such 
as the one in Mon Valley, Pennsylvania focus on the economic needs of 
their region, as well as in working with other LEFs in the State to 
bring students together and give their concerns voice. Others such as 
Achieve! Minneapolis focus on facilitating partnerships between 
businesses and schools, facilitating employee-student relationships, 
and creating mentoring programs.
    <bullet> Develop a shared, focused school reform agenda that 
incorporates a wide agreement among the stakeholders about reform 
goals. Such an effort could include information gathering vehicles such 
as town meetings, hearings, community forums, and/or public opinion 
polls in valuing and acting on the public's concerns. The San Francisco 
Education Fund has concluded the first phase of a large-scale community 
engagement effort to learn more about what the community wants from its 
schools. The LEF, the San Francisco Unified School District, and two 
parent organizations began working on this engagement effort late in 
the fall of 2006. In 6 months, they reached over 900 parents, youths 
and community members over the course of 2-hour conversations. The 
groups were small and intimate--usually 8-20 people--and were conducted 
in English, Spanish and Cantonese. They were held in all but one 
residential zip code in San Francisco.
    <bullet> Be independent from the local school district by 
organizing into a separate nonprofit organization and appointing a 
board that is reflective of the community, as well as representing the 
school district's diversity. This assures the idea that the LEF is not 
seen as part of the school bureaucracy and decisionmaking process, but 
does have expertise to link the community to work closely with the 
school district. An example is the LEF in Lincoln, Nebraska, which 
promotes family and community involvement in the schools through a 
series of grants that support the Lincoln Community Learning Centers. 
These grants encourage families, community organizations, and schools 
to work together.
    <bullet> Coordinate and develop coalitions and cross-sector 
alliances around the shared agenda for reform based on civic and 
organizational trust. In some LEFs, these alliances consist of business 
partners and other ``grass-tops'' in the community. In other LEFs, 
grassroot representatives have joined the ranks of the LEF 
stakeholders. Building trusting relationships and alliances in diverse 
communities assures that all voices in the community can be 
represented. For instance, the Philadelphia Education Fund recognizes 
that school systems--especially those that serve urban districts and 
low-income families--cannot succeed without the support and engagement 
of their broad civic community. Their community includes parents, 
government and business partners, community-based organizations, social 
service entities, communities of faith, and individual citizens. As a 
program area, the fund implements its civic engagement agenda through 
the initiation, staffing and support of the Education First Compact, a 
broadly diverse group of citizens committed to supporting and improving 
public education in Philadelphia. The compact meets monthly to learn 
about and exchange perspectives on reform initiatives in the 
Philadelphia schools, and to support policies and strategies that hold 
the best promise for improving the culture and outcomes of local 
schools. The compact also works to help community-based organizations 
use their social, intellectual and political capital to leverage school 
improvement.
    <bullet> Ability to be both an insider and outsider related to 
education reform and change. As opposed to advocacy groups which play 
mostly an outside advocacy role, the LEF is sometimes in the school 
camp, and sometimes outside of the school camp. Navigating this complex 
terrain requires special skills and understanding of how a school 
district operates, as well as how the community and civic sector 
operates. For instance, the Paterson, New Jersey Education Fund has 
trained 55 Paterson parents to be part of the Ask the Right Question 
Project. Collectively, these facilitators have delivered workshops to 
900 of their peers. They hold strategic thinking workshops for other 
parents in their local schools to help them support, monitor and 
advocate for education. Many of these facilitators now play a key role 
in school governance, serving as home school council officers and 
school improvement team members.
    <bullet> More and more LEFs are becoming involved in affecting and 
shaping education reform policy. For instance, the Voice for Public 
Education in Tucson, Arizona has been supporting funding proposals in 
Arizona, and they will hold a community NCLB hearing to listen to the 
voices of their community. This LEF also is providing parent leadership 
training sessions in parent advocacy. In Mobile, Alabama, the Mobile 
Alabama Education Foundation encourages and trains parents to become 
effective advocates for improved achievement for all students in their 
communities. The foundation also sponsored over 50 town meetings and 
campaigned to pass one of the first funding increases for the Mobile 
Public Schools in recent history. The Education Fund in Paterson, New 
Jersey, is working with a coalition of State organizations to advocate 
for funding for the Abbott school districts through a major campaign of 
public information, advocacy, and media visibility.
    <bullet> Ability to innovate and research new designs for increased 
student achievement. New Visions for Public Schools in New York opened 
83 new, small New Century High Schools serving 38,155 students, or 
approximately 14 percent of the New York City high school population. 
The Public Education Foundation of Chattanooga, Tennessee has worked 
with the community to reduce teacher turnover by more than 50 percent, 
led a teacher professional development program responsible for 8 of 
Tennessee's 20 lowest scoring, highest poverty schools that has 
resulted in dramatic improvement in reading and mathematics, and have 
performed better than 90 percent of all of Tennessee's schools for 3 
consecutive years.

              6. RECOMMENDATIONS FOR THE CURRENT NCLB ACT

    Mr. Chairman, PEN's members recommend the following issues 
regarding the reauthorization of NCLB: \1\
---------------------------------------------------------------------------
    \1\ Please find attached PEN's No Child Left Behind position that 
is in a draft form. Due to the urgency with which this committee 
hearing was called, the PEN Policy Committee was unable to approve a 
final draft of PEN's positions before this hearing. We expect to have a 
final position to enter into the record by your requested deadline of 
March 30, 2007.

    1. Improve competent teaching policies to better support teachers 
and assess their effectiveness.
    2. Implement a student-focused, comprehensive accountability system 
that rewards progress and encourages continuous improvement.
    3. Improve the use of school and district data and analysis that 
leads to more effective teaching and learning.
    4. Expand the opportunity for shared accountability by including 
the community as partners.
    5. Strengthen the parental involvement provisions.

    I would like to thank the Chairman of this committee and the 
members for the opportunity to testify on the reauthorization of No 
Child Left Behind.

    Senator Reed. Thank you very much and thank you all for 
excellent testimony. I will take about 5 minutes with some 
opening questions and then recognize Senator Gregg but I 
would--I'll stay here and I anticipate a second round. I know 
you have to leave, Mr. Ritter, but thank you.
    First again, Kathy, thank you for your participation and 
attendance. In Rhode Island, we have the School Accountability 
for Learning and Teaching Surveys. The surveys actually try to 
assess the level of parent and community involvement. Can you 
give an indication of how effective those surveys are in 
informing parents and measuring this involvement?
    Ms. Patenaude. I think they are very effective as long as 
the participation rates are high enough in the school. 
Unfortunately, the participation rates--not all parents respond 
to the SALT survey so it's hard to really validate the data 
sometimes.
    The second piece is that even though the information is on 
Web sites and from our--you know, compiles all the data, 
parents typically don't go to those sites and look to see how 
their school is doing in relationship to other schools across 
Rhode Island. So I think it really behooves us to encourage 
parents and be very good leaders in making sure parents go to 
those sites, understand the data and actually use the data. 
There are some people doing some good work in that area to try 
to inform parents but parents have to look at the data and 
then, in fact, go to their school and say, ``Why? Is such and 
such true or not true?''
    Senator Reed. Now, one of your suggestions is, I believe, 
is to have at least one person in each system who is 
responsible for parental involvement. I would presume that 
person would be trying to engage parents, just as you suggest.
    Ms. Patenaude. Exactly. In fact, sometimes when you look at 
the data, even the written data that comes out and you see what 
parents really are saying about, let's say, your high school, 
it's amazing that a lot of parents don't know about it and yet 
we should be fighting for that and going to our principals and 
our administrators and saying, why aren't we doing better in 
this area? So if there is one person in the district 
responsible, then that is their job and they'll be the one on 
the forefront, hopefully, making sure that parents are informed 
and will, in fact, be engaged.
    Senator Reed. Thank you. We've been joined by Senator 
Alexander and Senator Isakson and also Senator Kennedy planned 
to attend but there was a delay in a hearing that prevented him 
from attending and he sends his regards and thanks to all the 
witnesses.
    Mr. Ritter, you're going to have to depart at 5 p.m. so I 
want to get a question in and allow some of my colleagues also 
the opportunity if they wish. One of the issues that comes up 
and it was just mentioned by Kathy Patenaude is now, with 
computers, web-based instruction, web-based information--that 
this should be another way to attract parents into the school 
systems and keep them, particularly at the high school level.
    Is Texas Instruments, because of your technology base, 
working along these lines to try to engage parents through web-
based, Internet connectivity?
    Mr. Ritter. Yes, Senator, we have been. We've been involved 
for 15 years with an organization in Texas--it started in 
Texas--called Just for the Kids. Just for the Kids is a 
nonprofit organization that was founded by Tom Luce who served 
up here as Deputy Secretary of Education for a time and the 
whole purpose of the Just for the Kids approach is to make data 
available and useful to parents but also business leaders, 
community leaders, elected officials and so forth, so that we 
can get accountability for results.
    When you go to the Just for the Kids Web site and by the 
way, Just for the Kids formed a partnership with the Education 
Commission for the States and the University of Texas at Austin 
about 4 years ago to take their method of presenting data on 
the web to several States and after you passed No Child Left 
Behind, there was a need in several States to have a useful and 
accessible means of accessing the data. If you look at the 
National Center for Education Accountability Web site, you can 
go into a State, you can call up the data for your specific 
school and you can get information, not only on how your school 
campus is performing on the basic threshold requirements that 
are set in State standards but it also lets you know what the 
opportunity gap is between that minimal level of performance 
and the level of performance that you need to truly have kids 
move through the system and ready to go to college.
    Those are sometimes two different things but I agree with 
the comment from Kathy about the need to train parents, 
teachers, principals, business leaders--anybody who cares about 
educational outcomes in schools in terms of how do you look at 
data and how do you access it and what is a useful 
classification and I would recommend the NCEA Web site as a 
best practice in that area.
    Senator Reed. Thank you very much, Mr. Ritter. I have 
additional questions, Mr. Cardinali and Ms. Puriefoy but I'm 
going to stop now and recognize Senator Gregg for his questions 
and we'll do a second round.
    Senator Gregg. Thank you, Mr. Chairman. It's a pleasure and 
I appreciate the panel. I appreciate the information, and I 
thank you for your strong support of the No Child Left Behind 
as an initiative.
    You know, when we did No Child Left Behind, it basically 
was a sequential event, the first sequence being that we wanted 
States and local communities to decide how much children should 
learn at certain age levels, how much they should know in two 
basic disciplines, English and math. Then, we wanted to have a 
system where we could test, the test being set up again at the 
local level, where we could determine whether or not children 
were reaching those levels.
    Then, the third step, which was really the essence of the 
entire exercise, was to make that transparent so that parents 
would know whether or not their children were reaching the 
levels that had been set out as what a child in third, fourth, 
fifth and sixth grades should obtain.
    Then, the fourth step was to empower parents once they had 
that information to take some action to do something about it 
if their child was not in a school that was working well and 
set up a system where hopefully schools would address the 
issue.
    On this fourth step of having the parent be empowered, of 
course, we set up supplemental services and public to school 
choice and then, at the strong insistence of the Chairman, I 
would put in language relative to parental involvement in the 
school system. I recall very well those discussions and his 
assistance on that, which was appropriate.
    But I think we haven't gone far enough. We had the option 
of taking the next step, which is the logical step, which is 
that if a parent determines that the school isn't working and 
the supplemental service isn't giving the child effective 
relief in bringing them up to speed, that public school choice 
be an option. Shouldn't the parent have the right to other 
choices for their child? Shouldn't there be portability of 
funds so that when a child is in a school system that has 
failed and the supplemental services have failed and the public 
school option has failed, there would be portability of funds 
so the child could move and the funds would move with the 
child. Isn't that the ultimate relief for a parent who has a 
child in a situation where they are simply not learning? I'd 
ask the panel.
    Ms. Puriefoy. What we heard in our hearing from across nine 
States and 18 hearings were that parents wanted the convenience 
and the community-building that a good school in their 
community could mean for their community. So for all the 
portability, transfer options--when you ask parents and when 
you ask the public at large at the end of the day what they 
want, they want schools in their neighborhoods and in their 
communities to be effective and to work.
    Senator Gregg. That's absolutely true. And if they have a 
Catholic school that is working and the public school isn't 
working, shouldn't they have the opportunity to send the child 
to the Catholic school that is working in the same 
neighborhood?
    Ms. Patenaude. I'd like to speak to that and only in the 
fact that first of all, I think to take public funds away from 
public schools is not what we want to see happen. We, in Rhode 
Island--Rhode Island PTA, National PTA believes that public 
money spent in public schools is where we have to stay. If 
we're going to have good public education then the money has 
to----
    Senator Gregg. But is the goal to educate the child or to 
maintain the bureaucracy?
    Ms. Patenaude. I think that we need to find ways to make 
sure that the public schools----
    Senator Gregg. So, the school has failed for 5 years, in 
order to reach this level. It's just not working. So, you're 
going to maintain the bureaucracy at the expense of the child? 
You're going to cycle another group of children through that 
school that's not working without giving the parent an option--
is that the choice you're making?
    Ms. Patenaude. I just have trouble--I have philosophical 
differences trying to take money out of public schools for 
Catholic or private schools.
    Senator Gregg. Well, I understand the philosophical 
difference, but I'm asking whether or not we should sentence 
children to year after year of terms in schools that aren't 
meeting, by their own standards, their tests that they set up.
    Ms. Puriefoy. Well, the Nation has actually a great choice 
and that is to improve its public schools and that is what NCLB 
is working to do. If you look at poll after poll that canvases 
the American public and when the questions are put to them, 
they say they want a system of public education that works, is 
valuable for a Nation. Our founding fathers thought it was 
important. The American public continues to believe that it's 
important.
    Senator Gregg. I think that's true, and I don't think there 
is any question but everybody wants a public system that works 
very, very well. But I think the issue is whether or not a 
society which is built on competition--you don't improve the 
public system by making it compete and giving at least the 
parent the ultimate option of giving their child an education 
when they are locked in a school system that is giving them a 
bad education. I appreciate your thoughts, though.
    Ms. Patenaude. Just one final thing--how would you make the 
private schools accountable? Presently, public schools are 
accountable by some set of standards.
    Senator Gregg. Well, you know, I guess I have a lot more 
confidence in the parent than you do. If the public school is 
failing and has been determined to be a failing school and the 
parent knows their child isn't learning what they are supposed 
to be learning because they are seeing the results and the 
parent makes a choice to go to another school system, I'm going 
to presume that parent figures that other school system is 
going to do a better job with their child. It's just an issue 
of competence and parents versus bureaucracy, I guess.
    Ms. Patenaude. Unfortunately, what would happen is, you 
would have probably the neediest of children remaining in the 
public schools because even if you had a voucher, a private 
school cannot take your child. In Rhode Island, we have, in the 
public schools in Providence, we have a Classical High School, 
which is a high performing high school and you have to take a 
test to get into the high school. So if you don't pass the test 
then you still are relegated to a public school.
    Senator Gregg. But you shouldn't be relegated to a public 
school.
    Ms. Patenaude. Well, it's true that any private school can 
tell your child that--we can't service your child. Your child 
has special needs, your child can't learn--whatever the problem 
might be.
    Senator Gregg. I'm not sure--I'd like you to take time to 
come down here to the District of Columbia and take a look at 
what they've tried. Because they've actually tried this and it 
seems to be working. Thank you.
    Senator Reed. Thanks, Senator Gregg. Senator Alexander. 
We're going by seniority unless someone urgently needs to move 
ahead.
    All right, Senator Alexander.

                     Statement of Senator Alexander

    Senator Alexander. Thank you, Senator Murkowski. The U.S. 
Department of Education--what we've learned from No Child Left 
Behind seems to be that about 80 percent of schools did make 
adequate yearly progress. I'd call them high achieving schools 
although in a lot of cases, the State standards are not as high 
as we'd like for them to be and maybe in another 5 percent of 
the schools, children were not meeting their standards in one--
this aggregated group so the evidence over the last 5-years 
plus the anecdotal evidence seems to suggest that we have 
schools--about 15 percent of the schools--we have children who 
seem to be chronically not succeeding and most of what I hear 
and what I've seen over the years is that those children have, 
for the most part, have not gotten at home what they need to 
get at home in order to succeed in school. There are many 
reasons for that but that seems to be the fact. So they arrive 
at school never having had a book read to them, never having 
gone to a birthday party, maybe hungry, et cetera. We can all 
go through the litany of things.
    So it would seem to me that one of the lessons from No 
Child Left Behind in the first few years is that we might step 
back from the schools that are succeeding so well a little bit 
and make sure we're not interfering with their success by any 
heavy-handed Federal involvement. I don't mean less 
accountability, I just mean look carefully to make sure we're 
not interfering but that we should really break the mold in 
terms of these children, low-income children who seem to be 
coming from homes and live in areas where they are not 
succeeding.
    I've seen in Memphis, for example, where we have the 
largest number of our low performing schools that children who 
go to charter schools, special schools--these are public 
schools, where they go longer during the day, where they have 
the better teachers, where those teachers are paid more, where 
the principals are paid more based on their accountability, 
where the children go on Saturdays for half a day, where they 
go during weekdays and in a couple years, they are about up to 
where everybody else was in the third and fourth grades, 
otherwise, if we'd give them some help.
    But one of the problems we have is when we get into the 
details of those break-the-mold ideas. We run into a lot of 
resistance from those who are part of the public school 
community. For example, paying teachers more for teaching well. 
We now know how to identify teachers who do very well in 
helping low achieving children. Why don't we pay them a good 
deal more so they'll go in these tough schools with these tough 
kids and spend longer times and help them get through the third 
grade.
    Not all children fit into--we're back to the choice issue. 
I don't believe vouchers are a remedy to every problem but when 
I went to first grade in east Tennessee, my mother had an 
opinion about which of the two first grade teachers was better 
and made sure I got in the right class. Aggressive parents will 
do that, whether they are poor or they are not so poor. We were 
not rich.
    I wonder why we wouldn't make it possible to do just almost 
anything we could think of to do to help low-income children 
achieve so they can catch up and get at the starting line.
    One idea I had and suggested last year, based on some 
conversations I had in Nashville with families of such children 
is they weren't getting their music lessons because they had 
been squeezed out of the curriculum and the families didn't 
have enough money to buy private music lessons. So I suggested 
we give a $500 scholarship to all the families of low-income 
kids and let them spend it wherever they wanted to on an 
accredited program. That probably would be an after-school 
program or a music program or a catch-up program in English or 
a get-ahead program in math--whatever the family thought would 
be a good addition to whatever that child had. It would be what 
a family with money would do but with a family without money 
wouldn't do.
    What would you think of an idea of giving a $500 
scholarship to all low-income families and saying, in addition 
to wherever you're going to school, you can use this $500 for 
any accredited education program? Anyone have a thought about 
that?
    Mr. Cardinali. I think it is a fabulous idea, particularly 
because it is the low-performing kids, kids who are poor in the 
United States and often of color in the United States who not 
only don't have access to the resources that you mentioned but 
aren't encouraged by virtue of their circumstances, often. So 
public encouragement for enrichment, albeit I think music 
should be part of the public education curriculum. But in many 
cases, I think you're absolutely right, it is not. So in the 
event that it is unavailable through school to be provided that 
opportunity and again, I think coupling that opportunity with 
other kinds of social services that help stabilize that young 
person and open up horizons is an extraordinary opportunity.
    Senator Alexander. Anyone else have a thought?
    Ms. Puriefoy. I think that's on. I think it is a great 
idea. I think one of the things that is important is to assure 
that the school, in fact, is using the resources that it has 
effectively, making sure that it does have quality teachers, 
that the professional development in that school is really--or 
those schools--is really effective, where teachers are really 
using data that is fed back to them early enough so that they 
can make a difference in the classroom. So that we're making 
sure that the places where we know student achievement is 
increased, that the resources are going there and I would say 
that if we made that $500 available, either to the family or to 
the school, it would be to ensure that that child was having 
access to a well-rounded education.
    This is a way of introducing back into the public schools 
the need to have music, art, phys ed, great libraries--you 
know, all of the sets of things that when we all went to 
school, we had.
    I would also add that this is not the first time America 
has dealt with children who didn't come to school ready to 
learn. This is what school does. It helps children use the best 
assets they have, which is their minds. And if we equip our 
schools with teachers and a rigorous curriculum and a means of 
feeding back and data, we'll be able to do a good job for our 
children.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Alexander.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
all the questions and I appreciate the panel here this 
afternoon, a little bit of everything. I appreciate what you do 
with Communities in Schools and we've had an opportunity to 
talk about that and Mr. Ritter, to hear your comments and what 
Texas Instruments is doing.
    I want to focus a little bit on some of the issues that you 
raised, Kathy. As a former PTA president, I listened very 
carefully to what you had to say about how parents are 
sometimes viewed. We were the fundraising arm for my boys' 
elementary school and they looked at the parents and they said, 
``OK, you guys are in charge of raising the money for the books 
for the library''-- not, what can you do to help this school 
get on the right track, not what can you do to help within the 
classrooms, not what can you do to make sure that your son's 
achievement and the achievement of all the boys and girls in 
this elementary school are going to be what we want it to be.
    You made the comment that teachers need better preparation 
on how to engage with the parents. I think some people, 
particularly those who do not have kids in school right now, 
would look at that and say, for crying out loud. Teachers, 
parents--you know, talk. Figure it out.
    Our reality is that a lot of time, our teachers don't know 
how to deal with the parents and I think unfortunately, many 
times our parents just have no idea how to deal with the 
teachers and they don't know whether they are welcome there. 
They don't know how they can best be of assistance to their 
child and of assistance to that school. So you have these 
walls, these barriers that are built up and you don't have the 
communication that should go on.
    And you're right--a parent teacher meeting, where you are 
sitting down and you're talking about how Nic did in math this 
quarter, is not the time to be building these personal learning 
plans, as you referred to them.
    We need to do more to help build this relationship. I'm 
looking at a possible amendment that would allow--not mandate 
but would allow schools to use some of their No Child Left 
Behind funding to provide for training--to improve the parent/
teacher relationship, if you will. And I think that this is 
something that is really easy for us to talk about--the parent 
piece--but it's really not so easy to figure out how we make 
the best use of it.
    I've got a school district in Anchorage, Alaska--it's the 
largest school district in the State. We've got over 83 
different languages spoken amongst the children within the 
district. When we send out the required parent notices, under 
NCLB, we translate not only into Spanish but into Korean and 
Hmong. We've got a huge population of parents up there who are 
afraid to come into the school. So your point that it's not 
just about opening the school tonight for Parents in the 
Schools Night because you have, oftentimes, whole communities 
that are uncomfortable coming into this school.
    So my question to you is, do you have any suggestions that 
you have utilized in Rhode Island or to the rest of you, about 
how you can get parents--not necessarily into the schools--
maybe it needs to be a neutral territory but how you can do 
that and reach out to them so that they can be part of this 
piece that works better for the students, for the teachers and 
really, for the families. Are you doing anything that works? 
Because we've got some challenges.
    Ms. Patenaude. I appreciate your comments 100 percent. 
There are lots of things going on across the country. Certainly 
in Rhode Island, there are some things going on that make 
schools friendly to parents because that is a big piece. I 
don't know about your experience or anybody else's experience--
going through a school and saying, which door do I go into 
because all the doors are locked and there may be one door 
because of the way we have security problems now.
    Schools aren't open anymore. And if there isn't a welcoming 
sign that says, welcome parents and we're glad you're here, 
that is a big problem for a lot of parents. So we do have what 
we call Family Friendly Walk-Throughs that our PIRC in Rhode 
Island--I think it is a national program, actually, that people 
from the outside stand at the curb and look at the school and 
say, ``Okay, where do we go from here?'' And they step and go 
in and they take a bunch a people with them--community 
partners, parents from the school, the teacher, the principal 
and they actually go out and go into the school and find--why 
does the school look unfriendly or does it look friendly? Then 
they provide a report to the principal and the teachers as to 
what they can do. They provide big signage, already pre-made, 
with the name of the school, welcomes parents. That alone is a 
big issue, especially for parents that typically are afraid to 
go into a school.
    Senator Murkowski. When you mentioned in your comments the 
idea of schools should be open 24/7, we've gotten to a point 
now where our schools are not open.
    Ms. Patenaude. They're not.
    Senator Murkowski. They aren't open. We're afraid of the 
liability. We can't have any after school activities where 
you're not absolutely 100 percent monitored all the way 
throughout. In so many of our villages where the school is--
that is where the library is. It is where the gymnasium is for 
the whole community. But during summertime, that community 
gymnasium is shut down, that library is shut down. It's the 
only place where you've got Internet for the community and all 
of a sudden, because school is over, that internet access is 
gone. So we don't promote that attitude of openness and welcome 
because sorry, after school hours, we're shutting it down.
    Ms. Patenaude. I think that's the importance of partnering 
with community agencies that do have staff that is there on 
Saturday and Sunday and after hours and having like say, the 
neighborhood health center under the roof of the school as 
opposed to down the block. I mean, it's fine if it's down the 
block but that doesn't really merge the two--the school and the 
health-based agency. So those kind of partnerships can happen 
and the school can work with the town and their finances and 
these other people. Then that's a marriage made in heaven as 
far as I'm concerned. Daycare providers should be, before and 
after school, allowed to be under those roofs without worrying 
and wondering what all the red tape is all about. So I think 
those kinds of partnerships really, if we work on them, they 
will work and parents should be going to schools to take out 
library books. They shouldn't have to go to the town library. 
They should be able to--our own students should be able to go 
in and use the computers in the library in the high school or 
the middle school and right now, because of resources and the 
lack of those partnerships, we probably don't see that 
happening as much as we should be.
    But they are great ideas and I think if we work on it, we 
can get them done.
    Senator Murkowski. Mr. Chairman, I'm out of time but Mr. 
Ritter was waiting to respond to that.
    Mr. Ritter. I wanted to mention an experiment that we're 
trying down in Dallas to leverage the business community and 
the nonprofit community toward the goal of parental involvement 
in the schools. The Dallas ISP, we have a circumstance where 48 
percent of the kids who start ninth grade don't make it out in 
4 years to the 12th grade and the number is 58 percent for the 
Hispanic kids. I'm on the Board of the United Way of 
Metropolitan Dallas and we launched a program 2 years ago 
called, Destination Graduation. It was seeded with $100,000 
grant from the TI Foundation and what we did, was we gave that 
$100,000 to the United Way and we said, we want to put a drop-
out prevention initiative in place at Samuel High School, which 
was the lowest performing high school in DISP, predominantly 
Hispanic and we asked United Way to go out and find the three 
best agencies in the community that do mentoring, parental 
involvement and college readiness.
    So the United Way put out an RFP and it went to hundreds of 
community agencies and we got a sea of magnificent ideas in 
those three areas from our nonprofit community as they were 
competing for this grant money. We wound up awarding the grant 
to Big Brothers and Big Sisters for mentoring, to the Princeton 
Review for college readiness but on parental involvement, we 
gave the grant to a community-based grass roots organization 
called the Conciulio. The Conciulio is an Hispanic service 
organization that knows how to go out and talk to Hispanic 
parents, many of whom have never been inside a school, who've 
never attended a parent/teacher conference, who don't have the 
slightest idea how to read a report card and they went out and 
trained the parents in terms of what they needed to do to 
support their kids.
    In 1 year, the PTA at Samuel High School, grew from 3 
parents to over 50 and the amount of financial aid that the 
students from Samuel received basically increased by a factor 
of 10 because parents were getting engaged and they were 
learning about things like financial aid and so forth. So the 
idea of using campus-based community collaborations like that 
and leveraging resources that are in the nonprofit community 
like the United Way and the interest that businesses have, like 
TI--and every community has got companies like ours--can result 
in some very, very effective results in the parental 
involvement vector.
    Senator Murkowski. Thank you.
    Ms. Puriefoy. Could I add to this?
    Senator Reed. Go ahead, please.
    Ms. Puriefoy. There are three areas that you talked about. 
One is training. Parents need to have access to really good 
training. So it would be very useful for districts. One of our 
recommendations is to set benchmarks--What is an effective 
collaboration between a parent and a school? What does it look 
like?--determine the benchmarks and then be able to have some 
type of report card or assessment as to whether or not that's 
happening. So people are working off of a common agenda.
    The second is that in the provisions of the law, many of 
those provisions are not being carried out. So one of the 
things that parents hear, by word of mouth, is--``Oh, don't go 
sit on that school council because nobody is going to pay any 
attention to you.'' So they have to have some sense of re-
dress, that if it isn't working for them, they need a place 
where they can go file a complaint and be able to feel like 
they are getting something done.
    Finally what I would say is we did an experiment and funded 
it, the Annenberg Foundation provided a grant for this. We 
helped to set up 19 Community Learning Centers in Lincoln, 
Nebraska. These Learning Centers were open to all people in the 
community. Parents used these centers to learn about what was 
happening in their children's school, to learn with their 
children, to be able to engage in all kinds of activities. It 
started building parent confidence in communities and that 
confidence began to be much more transportable to the schools.
    So the school alone can't be totally responsible for 
developing better parent/teacher relationships. There is a 
whole set of organizations and agencies within communities that 
can help that to happen and we have a great experiment that 
happened in Lincoln and a very good experiment that frankly is 
happening in Providence now, looking at the whole out-of-school 
time strategy.
    Senator Reed. Thank you very much.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman. I had the 
privilege of going to public school. My wife taught public 
school and my kids all went to public school and I chaired the 
State Board of Education. I always said parents have three 
choices--private school, home school or public school and my 
job was to make public school the best choice. I think this 
hearing is about the single most important thing to break 
through the problems that we have.
    I want to ask you a question, Ms. Patenaude--is that right?
    Ms. Patenaude. Patenaude, yes.
    Senator Isakson. Patenaude. I'm sorry.
    Ms. Patenaude. That's okay.
    Senator Isakson. When were you a local school PTA 
president?
    Ms. Patenaude. In 19--let's see, it's got to be about 15--
--
    Senator Isakson. OK. You're now President of Rhode Island?
    Ms. Patenaude. Right.
    Senator Isakson. In your judgment, has No Child Left Behind 
been successful in improving education of the title I students?
    Ms. Patenaude. I think--I'm not sure--successful is a big 
word. It's been somewhat successful----
    Senator Isakson. It means they're improving.
    Ms. Patenaude. I think it's improving. I think yes, I think 
that's true.
    Senator Isakson. OK, well, I happen to think so, too and I 
think it is because--I'm sorry Mr. Ritter is gone--one, there 
is a lot more transparency of the data. It is accessible to 
parents. I know there are issues about subnormal services in 
public school choice but the key to that was, it got the parent 
in the school and asked them to make a decision on the future 
of their child, which most of these parents had.
    I have a belief that the biggest disability in America is 
not ADD, it's PDD--parental deficient disorder and I think 
those are parents that don't have a social/economic excuse. 
They just don't get involved and we need to do everything we 
can to get them involved and PTAs can do that.
    But there are a lot of parents who, because they are a 
single mom, they're working two jobs and I don't like talking 
bad about them because God bless them, making the money to put 
the meal on the table is helpful and we need to do some 
positive things, which leads me, Mr. Chairman, to Communities 
in Schools.
    I want to tell you a story. I was Chairman of the State 
Board of Education. Zell Miller was Governor of Georgia. He had 
beaten me and then appointed me to run education and he said, 
``Listen, I've got $2 million extra that I can put--if you 
could make one investment, where would you make it?'' We were 
dealing with the drop-out rate, we were dealing with under-
served schools and I had met the Communities in Schools people 
and I said, ``I'll tell you what. They told me that for 
$1,625,000 they could make a difference in 21 school 
districts,'' which I thought was a pretty good return on the 
dollar and so I asked the Governor to put that in the budget 
and he did.
    Today I think they are involved in 67 school districts and 
graduation rates are like 85 percent in those schools where 
before, in some cases, they were less than 50. It's an 
engagement that deals with what--a lot of schools who do have 
the single working parent who can't be as engaged because of 
the stress and demands they have but they matched community 
services with student needs.
    A lot of our kids' problems are, in my judgment, mentor-
based and guidance-based and they provide a match for services 
that are available but are a mystery to the schools because 
they're worried about doing their job and are a great catalyst. 
So I want to commend Mr. Cardinali, who did not pay me to say 
that in any way. I happen to have a very positive experience 
with them and I think for those--particularly those systems 
where students have--the parents are a majority of single 
parents. They're working a couple of jobs. They have a very 
difficult time, rural poor or innercity-poor, it is a 
tremendous system and I commend them for what they do.
    I do think we need in this reauthorization, to find any 
other areas we can put catalytic agents for parental 
involvement in. I agree with you that the schools are more 
closed than they should be. They need to be as open as they can 
be. I think Senator Alexander's idea about an additional 
educational enrichment is a terrific idea because there are so 
many things that could be made available to a child only, be it 
for the money being missing and things of that nature.
    But I'd be interested in hearing just your general thoughts 
on anything we've missed in this hearing that you might have 
wanted to suggest, particularly with regard to getting the 
parents in the school. I'll start with you, Ms. Puriefoy. Have 
you missed anything that you haven't had the chance to say?
    Ms. Puriefoy. I don't think I've missed anything but here's 
what I'd like to add.
    Senator Isakson. OK.
    Ms. Puriefoy. I would say that there is a difference 
between parental engagement and community engagement and public 
engagement. In the parental engagement, it is the distinct 
relationship that takes place between the parent or the 
guardian and the child to really be able to set the 
expectations for what a child should be doing.
    Senator Isakson. That's absolutely irreplaceable.
    Ms. Puriefoy. And that is irreplaceable. The community 
engagement is really looking at the sets of relationships that 
take place outside of schools that often times deal with and 
provide an opportunity for children to demonstrate some level 
of success, often in a nonacademic setting but it transfers to 
lots of other places.
    Public engagement, I think, is the broader involvement of 
people like me, who don't have kids in school, who are single. 
I'm not a double income--you know, no kids. I'm a single person 
and if I don't have a kid in school, then I can't be in the 
school. I'm suspect if I go to volunteer. If I go to volunteer 
in a community agency, that's a lot better because I can be a 
mentor to a kid.
    But we need to create a resonating chamber in this country 
where we understand that the minds of Americans is our first 
and most important natural resource and that the only 
institution that can take quality public schools to scale are 
the public. And at the end of the day, if the resources are 
going to be provided, they will not be provided by parents 
alone. They will not be able to be provided by community 
agencies alone. It will be John Doe and Mary Doe who say, ``You 
know what? This makes a difference to my life, to the quality 
of my life, to the level of civil discourse that does or 
doesn't take place in my community, to the ability for me to 
understand a ballot or live next door to somebody who 
understands how to read the referendum or to decide on what 
kind of healthcare they are going to want or to be able to 
understand the debate that goes on in the Senate about national 
security.''
    So I would say that at the end of the day, the engagement 
of the broadest possible segment of the American public is 
essential for us to do.
    Senator Isakson. My time is up, I know but real quickly, 
Ms. Patenaude, did you have anything to add?
    Senator Reed. I would like the panelists to take as much 
time as they'd like to respond to Senator Isakson's question. I 
think it is excellent and anticipated my second round. So we 
can finish up.
    Kathy.
    Ms. Patenaude. What I'd like to say is that I truly believe 
and I think most parents do believe that they want the best for 
their children. And your comment about disengaged parents or 
parents that don't--are apathetic--I think you can use that 
argument with all of us who may be apathetic when we vote. 
That's a perfect example. People don't vote and yet, if you go 
to the neighborhood restaurant, everybody is talking about the 
politics.
    Everybody has an opinion about what is going on at the 
Statehouse or in Washington and so do parents talk. They really 
do care about their kids and again, maybe the local person 
doesn't feel that they have a voice at the Statehouse or in 
Washington but you have to let them know that they do and the 
same thing with parents. If you empower parents, then they will 
go to the school and they will be engaged.
    I do believe that if they feel they can make a difference 
in their child's education and that their school leaders are 
going to listen to them, their teacher is an equal partner with 
them, then instead of talking out in the parking lot and 
gossiping about something that's not really relevant, they'll 
go into that school and make a difference for their child and 
they will, in fact, pick up the baton and use it. So I really 
think that's where we're at. We have to educate and empower and 
make sure those parents get into the schools, just like we need 
more people to get out there and vote.
    Senator Reed. Mr. Cardinali.
    Mr. Cardinali. Thank you for the call out on Communities in 
Schools. I also want to pick up a question that Senator 
Murkowski asked regarding more effective practice and it kind 
of blends what I would like to say about parental involvement.
    In Atlanta, Georgia as well as in Houston, Texas and 
Columbus, Ohio and a number of other places, Communities in 
Schools, I think, took the framework that Ms. Puriefoy put out 
and kind of blended it into an effective strategy and we call 
it Walk for Success. What it does is, a Community in Schools 
site coordinator, who is positioned in the school at the 
beginning of the year, works with the principal and the 
teachers, identifies where kids are, where their families are. 
They mobilize volunteers committed to public education and they 
walk the streets knocking on the doors of the families' homes. 
In many cases, they break down the fear and the barriers that 
exist because parents may have failed school. They may not be 
English language speakers. They may have all sorts of pre-
conceived notions about what happens or should happen or 
doesn't happen in the school and those volunteers begin the 
relationship with the parents.
    What they discover is that there is a deep passion for 
their kids being successful and there is often a fear about how 
to help support that. So with kids who live in poverty and 
their families who live in poverty, there is often a need to 
reach out to those families, to stabilize them in affordable 
housing, living wage jobs and community engagement.
    So our work often extends beyond just the parental 
involvement in a child's life or academic support--but 
stabilizing a family. And once a family is stabilized, there is 
a lower probability of that child moving from one school to the 
next, which is a direct predictor of drop-out--high mobility 
rates.
    So when we talk about parental involvement, we're actually 
talking about family engagement and a holistic development, not 
just of the child's academic career but of that family's 
ability to be a support mechanism comprehensively.
    I think I'd like to really challenge us to think about 
that, as we focus on the improving of public education. There 
are some opportunities in this blending of community 
involvement to be really focused on the ability to support 
kids, support families and improve public education in the 
process. And I think it's an exciting time. Thank you.
    Senator Reed. Well, let me thank my colleagues for 
excellent questions and the panel for excellent presentations. 
It was very informative and we really appreciate your effort 
and again, your patience for putting up with our schedule. I 
would like for the record to indicate that we will keep the 
record open for 2 weeks so interested parties can submit 
written testimony. So if you want to, follow up with additional 
written testimony and for Senators to submit questions for your 
response within the next 2 weeks. But thank you--again, to all 
of you. It was just an excellent presentation. I've learned a 
great deal, not only from the witnesses but from my colleagues. 
So thank you very much.
    I will now adjourn the hearing.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Enzi

    I would like to thank Chairman Kennedy for holding this 
important hearing. Parental and community involvement are 
critical pieces of No Child Left Behind. The education of a 
child is not the sole responsibility of a single parent, family 
member, teacher, principal, or community member. The education 
of a child is the responsibility of all--of parents, family 
members, teachers, principals, and community members.
    A parent is a child's first teacher. Parents are the only 
constant in the continuum of our educational system. They are 
at the door when their child starts kindergarten and in the 
audience for their child's high school graduation. But, parents 
can only do so much, and we know that too many parents have 
responsibilities that keep them away from many of their child's 
experiences at school.
    I believe that we all want the same outcome--to make sure 
that every student is prepared to be successful in the global 
economy. To accomplish this we will need a bipartisan, 
bicameral approach to reauthorization. I look forward to 
reauthorizing NCLB in the same spirit of bipartisanship, 
cooperation and optimism that characterized its original 
passage.
    No Child Left Behind is working--we must continue the four 
key principles of the law and strengthen the law to support 
those key principles. One of those four principles is ensuring 
that parents have options and timely information.
    Parents and community members are vital members of this 
process. We must continue to find effective ways to work 
together to improve not only academic achievement levels, but 
also the atmosphere at our Nation's schools. Successful schools 
are able to harness support from community members, 
organizations and businesses.
    This is true regardless of where a school is located. One 
of the things that I will focus on is the impact of NCLB on 
rural schools. We need to make sure that what we do does not 
have unintended negative consequences on schools where there 
may be only 10 students and one teacher. These schools should 
not be penalized, when they are working within the law to 
ensure that all students receive the education they need to be 
successful. No rural school or student should be left behind.
    The reauthorization must continue to support the 
involvement of parents, community members, and businesses. The 
Federal Government cannot provide everything a school needs to 
be successful, but we can work to ensure that partnerships are 
encouraged and assisted wherever possible.

    [Whereupon, at 5:18 p.m., the hearing was adjourned.]


</pre></body></html>
